<html>
<title> - H.R. 4722, LAKE ERIE WESTERN BASIN INTERNATIONAL WILDLIFE REFUGE ESTABLISHMENT ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   H.R. 4722, LAKE ERIE WESTERN BASIN INTERNATIONAL WILDLIFE REFUGE 
                           ESTABLISHMENT ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 18, 2002

                               __________

                           Serial No. 107-142

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 ______

80-803              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina

                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 18, 2002....................................     1

Statement of Members:
    Dingell, Hon. John D., a Representative in Congress from the 
      State of Michigan..........................................     7
        Prepared statement of....................................     9
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     1
    Kaptur, Hon. Marcy, a Representative in Congress from the 
      State of Ohio..............................................     3
        Prepared statement of....................................     5
    Underwood, Hon. Robert A., a Delegate in Congress from Guam, 
      Prepared statement of......................................     2

Statement of Witnesses:
    Chase, Edith, President, Ohio Coastal Resource Management 
      Project....................................................    27
        Prepared statement of....................................    27
    Huntley, Melinda, Executive Director, Lake Erie Coastal Ohio, 
      Inc........................................................    22
        Prepared statement of....................................    24
    Mastroianni, Theodore, Special Assistant to Mayor Jack Ford, 
      Toledo, Ohio...............................................    19
        Prepared statement of....................................    21
    Speck, Samuel W., Director, Ohio Department of Natural 
      Resources..................................................    15
        Prepared statement of....................................    17
    Stieglitz, Barry W., Deputy Chief, Division of Conservation 
      Planning and Policy, National Wildlife Refuge System, Fish 
      and Wildlife Service, U.S. Department of the Interior......    11
        Prepared statement of....................................    14

Additional materials supplied:
    Front, Alan, Senior Vice President, Trust for Public Land, 
      Statement submitted for the record.........................    31


LEGISLATIVE HEARING ON H.R. 4722, LAKE ERIE WESTERN BASIN INTERNATIONAL 
                   WILDLIFE REFUGE ESTABLISHMENT ACT

                              ----------                              


                        Thursday, July 18, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Mr. Gilchrest. Marcy and John, do you want to come up to 
the table?

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. We are happy to have you here this morning, 
and we look forward to your testimony on the refuge proposal. 
We have looked at some of the information and geological 
surveys, and we know that it is an area that is home to just a 
myriad of wildlife habitat for migrating birds and ducks, and 
much of the original area has been developed and populated and 
bridged and roaded and built on and so on, but we know you are 
looking to carve out a certain area that can still retain its 
value for open space and habitat for wildlife.
    And we look forward to working with you on this issue, even 
though it is in a fairly metropolitan area, to make it happen.
    And I ask unanimous consent that Mr. Underwood's statement 
be submitted into the record and my full statement be entered 
into the record, and we look forward to your testimony.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning, today, the Subcommittee will conduct a legislative 
hearing on an innovative proposal by our colleagues Marcy Kaptur, John 
Dingell, and Paul Gillmor to establish the Lake Erie Western Basin 
International Wildlife Refuge.
    According to the U.S. Geological Survey: ``Lake Erie is the 11th 
largest fresh water lake in the world and it has the most productive 
fishing habitat in all of the Great Lakes.''
    It provides essential habitat for 43 different fish and 325 avian 
species including bald eagles and black ducks. Sadly, like so many 
areas, nearly 98 percent of the original coastal marsh wetlands of the 
Western Lake Erie region have been lost to development.
    While I am intrigued by this proposal and compliment the authors of 
this bill, I am hopeful that a number of questions will be answered 
during this hearing. These include: a map delineating the property to 
be incorporated within the proposed refuge; the costs and source of 
Federal funding; the species that will be conserved and protected with 
a refuge designation and a list of organizations that support this 
idea.
    I look forward to hearing from our distinguished witnesses and I am 
pleased to recognize my friend from Guam, Congressman Robert Underwood.
                                 ______
                                 
    [The prepared statement of Mr. Underwood follows:]

Statement of The Honorable Robert A. Underwood, a Delegate in Congress 
                               from Guam

    Thank you, Mr. Chairman. As I have often stated, our nation's 
National Wildlife Refuge System is one of the Federal Government's best 
kept secrets. This System, comprised of 535 units that protect over 94 
million acres of habitat, functions as our only network of lands and 
waters dedicated exclusively for the conservation of fish, wildlife and 
plant resources.
    It is, however, no secret that the growth and expansion of human 
settlement continues to stress, if not completely transform, the 
landscape; a transformation which is almost always detrimental to both 
wildlife and wildlife habitat.
    Consequently, it is no surprise to me, Mr. Chairman, when our 
colleagues propose legislation to add new refuges to the Refuge System 
or to expand existing refuges. They are, like yourself, simply 
recognizing a stark reality: that new refuges are necessary to meet the 
needs of wildlife, and that more refuges are needed to address the 
public's demand for wildlife-oriented outdoor recreation. If anything, 
with public visitation to our National Wildlife Refuges now exceeding 
35 million Americans annually, this demand will only become greater in 
the years ahead.
    It is with these thoughts in mind that I commend our colleague, 
Congresswoman Marcy Kaptur, for introducing her legislation, H.R. 4722, 
which would establish the Lake Erie Western Basin International 
Wildlife Refuge. As you know, Mr. Chairman, this legislation is 
strongly supported by the Ranking Democrat Member of the Resources 
Committee, Congressman Nick Rahall. Both he and I sincerely appreciate 
your expedited consideration of this bill.
    It is not, in my estimation, an overstatement to say that H.R. 4722 
would represent a bold step forward in the conservation and protection 
of valuable fish and wildlife in the western basin of Lake Erie. The 
Western Basin is distinguished by a diverse ecosystem comprised of 
islands, channels, rivers and shoals that support dense populations of 
fish, wildlife, migratory birds and aquatic plants. Unsurprisingly, the 
region is already partially protected by the Ottawa National Wildlife 
Refuge Complex.
    Based on these facts, expansion of the existing refuge would seem 
to make sense ecologically and administratively. This bill would also 
appear to build on the innovative legislation sponsored by the Dean of 
the House, Congressman John Dingell, and signed into law by President 
Bush last year, that established the Detroit River International 
Wildlife Refuge.
    Yet, as we learned at the June 20 hearing on Chairman Gilchrest's 
legislation to expand the Susquehanna National Wildlife Refuge, the 
Bush Administration has decided that the Refuge System has expanded, 
perhaps, a bit too much.
    Regrettably, we have not received any further information from the 
Administration concerning the specifics of their new policies regarding 
the establishment of new refuges or the expansion of existing units. 
Perhaps we will learn more about those policies this morning. But if 
not, I would urge the Administration to engage in a more robust 
consultation with the members of this Committee before finalizing new 
policies.
    Nevertheless, in the interim, the Congress should reserve its right 
to exercise its legislative prerogative to establish new units or 
expand existing refuges. And where the conditions warrant purposeful 
action, the Congress should act to ensure healthy and abundant fish and 
wildlife habitats for future generations of Americans.
    I earnestly hope that we are able to work collaboratively and in 
good faith with the Administration to fairly assess this proposal as we 
were able to do successfully last year when we considered and passed 
Mr. Dingell's legislation.
    In my opinion, H.R. 4722 is legislation that has a genuine 
potential to protect and improve the remaining fish and wildlife 
habitat in the Western Basin of Lake Erie. And in the end, I hope that 
what is best for the fish and wildlife resources of Lake Erie will 
ultimately guide our judgements. Thank you.
                                 ______
                                 
    Mr. Gilchrest. And, Marcy, you may begin.

    STATEMENT OF THE HON. MARCY KAPTUR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Kaptur. Good morning, Chairman Gilchrest and members of 
your staff. I would like to ask, first, unanimous consent to 
submit my full statement into the record.
    Mr. Gilchrest. Without objection.
    Ms. Kaptur. And also express my deepest gratitude for 
Congressman John Dingell for joining us this morning and for 
his enormous leadership in the area of wildlife protection and 
the restoration of our ecosystems across this country and 
world, and surely in the area in which we reside.
    We share a State border. I am the Buckeye part and he is 
the Wolverine part. And we also have our districts that front 
on the shallowest of the Great Lakes, Lake Erie. And this 
happens--the confluence of our districts and the water systems 
and the adjacent ecosystems are actually at the nexus of the 
Mississippi and Atlantic flyways. And so I think John sort of 
knew that as a child, growing up and trapping and hunting and 
so forth.
    But we have been about the task over a number of years now 
of restoring the damaged shreds of an ecosystem that was 
ignored for a very long time. And so the purpose of my 
testimony this morning is to talk to you about the crown jewels 
of Ohio and, if I might be so bold, Michigan; and to ask for 
your continued support of H.R. 4722, which is entitled the 
Ottawa National Wildlife Refuge Expansion.
    And the purpose of the bill is to expand the boundaries of 
an area in which the Ottawa National Wildlife Refuge in Ohio 
could purchase additional land, as well as accept donations of 
land and conservation easements. And, for the record, I would 
also like to say that Lake Erie, as the shallowest of the lakes 
is most fragile; she is the warmest, and, because of that, has 
the most bird life and sea life and also human life, using the 
beaches. We have a lot of different users of the water system, 
and Lake Erie is the most tapped of our lakes for those that 
live around its perimeter.
    And, in addition to that, we are a wildlife center in the 
fishing industry for our entire country. And the areas we are 
talking about literally dot the perimeter, the shoreline. It 
goes up into Michigan--and John will talk about that--it comes 
down to Ohio. It includes the Lake Erie Islands, including the 
West Sister Island, which is a National Wildlife Refuge for the 
blue heron. And I just wish we had more of those refuges, 
because we have the current refuges being used by all these 
birds that fly from south to north, and they nest in our 
region. I would like to believe we have a lot more birds in 
Ohio than Michigan.
    But we are talking here at America's north coast--and the 
current area, Ottawa National Wildlife Refuge, attracts over 
130,000 visitors a year. We get a lot of birders and a lot of 
fishermen and -women, hikers, artists, and photographers. And 
we are building a new visitor's center at that wildlife refuge.
    We thank the Subcommittee and the Full Committee for their 
support in order to handle the growing numbers of people that 
are gravitating to this lake and lakefront. We are talking 
about the Lake Erie marshes, the wetlands, and, of course, the 
thousands of miles of shoreline.
    I also wanted to thank the Fish and Wildlife Service, if I 
could--I have it in my testimony--because they have been just 
magnificent to work with, particularly post-9/11, with all the 
responsibilities they have protecting our national monuments 
from damage and also fighting forest fires, they managed to be 
very helpful advisers to us as we proceeded forward on this.
    Mr. Chairman, it is all in the testimony, but I just wanted 
to mention Ottawa covers over 5,000 acres currently, and was 
first created in 1961; an adjacent wildlife refuge called Cedar 
Point National Wildlife Refuge was created in 1964,and contains 
over 2,400 acres. I mentioned West Sister Island in the lake, 
which comprises about 77 acres.
    And then the Ohio Department of Natural Resources--and its 
director, Mr. Sam Speck, is here today, and we also want to 
acknowledge him in the record--manages the Magee Marsh, which 
is adjacent to all of these facilities that I am talking about. 
And Director Speck is deeply committed to the future of the 
Lake Erie wetlands and Lake Erie islands in Ohio, so that 
future generations can enjoy the natural beauty that we see 
disappearing before our eyes if we aren't more aggressive about 
paying attention to the ecosystem.
    I wanted to also mention, before I turn it over to 
Congressman Dingell, that H.R. 4722 emphasizes cooperation, as 
was the case in Congressman Dingell's bill, the Detroit River 
International Wildlife Refuge. Our bill does not allow for 
forced takings or the use of eminent domain. And if a landowner 
doesn't want to sell or donate or convey property or property 
rights, nothing happens. And similarly, if the U.S. Fish and 
Wildlife Service don't want to accept an offer of a donation, 
nothing happens. As was the case with the Detroit River Refuge, 
both the property owner and the Federal Government must 
voluntarily agree or nothing happens. But if both parties do 
agree, then the bill provides a mechanism for making a positive 
and lasting contribution to the beauty of our area.
    I wanted to say that Congressman Dingell's efforts north of 
our border have begun to bring the kind of regional attention 
that we need to this region. And our bill starts at the 
southern boundary of the area that was defined in Congressman's 
Dingell's bill, and then wraps around the corner of the western 
basin of Lake Erie, and it proceeds east along the coastline to 
Sandusky Bay, and including all of the Lake Erie islands, which 
are very small islands but also ones that are very heavily 
used, and in some cases neglected.
    For the record, as our testimony states, almost 98 
percent--98 percent of the original wetlands in northwest Ohio 
have been lost. And we know that about 70 percent of the 
Mississippi flyway population of black ducks use Lake Erie 
marshes for migration. You can see the Canadian geese, you can 
see the egrets, the eagles. By the way, the eagles are coming 
back. I think this year we have, I want to say, over 50 nesting 
pairs. When I began in my job, I think we had 4 or 6. And so we 
are trying to restore the bird populations in our part of North 
America.
    I wanted to also place on the record, if I could, we have 
had meetings in our region of stakeholders, and we have over 
600 letters of support, probably more like 800 letters of 
support, from every county commissioner of every county 
involved; all the local officials, non-governmental officials, 
environmental organizations, Ducks Unlimited, many of the 
groups that are in the audience today that will be testifying.
    So I think we have done our homework in terms of letters of 
support. And for the record, I would like to submit all of 
these, along with a letter from Mr. Joe Summers, who was the 
former director of the Ohio Department of Natural Resources. So 
we have quite a heavy volume here of support for this.
    Mr. Gilchrest. Without objection, they will be submitted 
into the record.
    [The information referred to has been retained in the 
Committee's official files.]
    Ms. Kaptur. And Mr. Chairman, I know you will be 
introducing these individuals later, but I also wanted to thank 
Congressman Paul Gillmor, who is my neighbor in Ohio and a 
supporter of this legislation; Gail Norton, the Secretary of 
the Department of Interior. I mentioned Mr. Sam Speck who will 
be testifying. Representing the Mayor of the City of Toledo, 
the largest community that borders this region, will be Mr. 
Theodore Mastroianni, the mayor's special assistant; also, Mr. 
Christopher Knock, the director of the Trust for Public Lands, 
Ohio Chapter; and Ms. Melinda Huntley, the executive director 
of Lake Erie Coastal Ohio, Incorporated.
    I think I would like to just submit the rest of my remarks 
for the record. And I thank you so very, very much. I think we 
are fortunate to be before your Subcommittee as we proceed with 
this legislation, Congressman Gilchrest. You are such a leader 
for all of the Nation in this regard. Thank you.
    Mr. Gilchrest. Thank you, very much Ms. Kaptur. We look 
forward to working with you as we go through the process to 
make this all happen.
    [The prepared statement of Ms. Kaptur follows:]

 Statement of The Honorable Marcy Kaptur, a Representative in Congress 
                         from the State of Ohio

    Dear Chairman Gilchrest and Ranking Member Underwood:
    Thank you for this hearing and for the opportunity to testify 
before the Subcommittee on H.R. 4722.
    The purpose of this bill is to expand the boundaries of the area in 
which the Ottawa National Wildlife Refuge in Ohio could purchase land 
as well as accept donations of land and conservation easements.
    The Ottawa National Wildlife Refuge complex, which is located east 
of Toledo along the Lake Erie coastline, America's North Coast, is 
becoming increasingly known in the Great Lakes region as a great 
success story.
    The refuge attracts approximately 130,000 visitors each year 
hunters, fishermen, photographers, birders, hikers, artists and 
schoolchildren. We are hopeful about the prospects for construction of 
a new visitors' and education center at the Ottawa refuge; funds for 
that project were contained in the Fiscal Year 2003 Interior 
Appropriations bill that is scheduled for a vote in the House this 
week. The new visitors and education center will enhance the ability of 
the Fish and Wildlife Service to tell the wonderful story of the Lake 
Erie marshes, wetlands and shoreline to hundreds of thousands of 
people.
    Let me take just a moment, if I may, to recognize the wonderful 
contributions made by the U.S. Fish and Wildlife Service to our 
country. Most Americans are not aware that the Fish and Wildlife 
Service law enforcement personnel have over the past several months 
been providing increased security at our national treasures-such as 
Mount Rushmore.
    Moreover, in the past several weeks, Fish and Wildlife Service 
personnel from throughout the country--including our own region, which 
is headquartered in Minneapolis--have been enlisted in fighting fires 
throughout the Western United States. So let me offer my sincere thanks 
to the Service and its hard-working employees for their service to our 
nation.
    Mr. Chairman, the Ottawa National Wildlife Refuge complex consists 
of three refuges.
    The Ottawa National Wildlife Refuge, which covers more than five 
thousand acres, was created in 1961 when local conservation and hunting 
clubs donated land to the Fish and Wildlife Service. If not for these 
donations, the Ottawa National Wildlife Refuge might never have been 
created. H.R. 4722 seeks to build on that legacy of cooperation.
    The Cedar Point National Wildlife Refuge was created in 1964 and 
covers 2,445 acres. The West Sister Island National Wildlife Refuge was 
created in 1937 and all its 77 acres were designated as wilderness in 
1975. It is the only national wilderness area in the state of Ohio and 
is home to the blue heron, among other species.
    Adjacent to the Ottawa National Wildlife Refuge is the Magee Marsh 
Wildlife Area, which is managed by the Ohio Department of Natural 
Resources. Magee Marsh is a testament to cooperation between the state 
and Federal Governments.
    I am particularly honored that Dr. Sam Speck, director of ODNR, has 
joined us today. I know from conversations with Director Speck that he 
is deeply committed to the future of the Lake Erie wetlands and the 
Lake Erie Islands in Ohio so that future generations can enjoy the 
natural beauty and the recreational opportunities they provide. I 
sincerely appreciate his taking the time to come to Washington to 
testify on behalf of H.R. 4722 because the essence of this legislation 
is cooperation, about working together, and, to be honest, the state of 
Ohio is the key partner.
    H.R. 4722 emphasizes cooperation, as was the case with the Detroit 
River International Wildlife Refuge, which was introduced by our 
colleague, Congressman Dingell, and then approved by this Subcommittee, 
the Resources full Committee, the House and eventually signed into law 
by President Bush last December.
    H.R. 4722 does not allow for forced takings or the use of eminent 
domain.
    H.R. 4722 builds on that same public mindedness that led to the 
creation of the Ottawa National Wildlife Refuge some 50 years ago. 
Nothing can happen without the agreement of both parties: if the 
landowner does not wish to sell, donate or convey property or property 
rights, nothing happens. Similarly, if the Secretary of Interior and 
the U.S. Fish and Wildlife Service do not wish to accept an offer of a 
donation, nothing happens. As was the case with the Detroit River 
refuge, both the property owner and the Federal Government must 
voluntarily agree-or nothing happens.
    If both parties agree, however, this bill provides a mechanism for 
making a positive and lasting contribution.
    Over the past seven months, Congressman Dingell's successful effort 
to establish the Lower Detroit River refuge has already brought greater 
awareness to the unique nature of our area. I say ``our'' area because 
Congressman Dingell and I not only represent adjacent districts--we 
share an ecosystem. Indeed, 95 percent of the inflow to Lake Erie comes 
from the Detroit River.
    Basically, H.R. 4722 starts at the southern boundary of the area 
that was defined in the Dingell bill, then wraps around the corner of 
the western basin in Lake Erie and extends along the coastline to 
Sandusky Bay. It also includes the Lake Erie Islands in Ohio.
    We are acutely aware in Northwest Ohio, and becoming more aware 
each day, of the importance of the Lake Erie wetlands. We are also 
aware that almost 98 percent of the original wetlands in northwest Ohio 
have been lost. The remaining wetlands are vitally important to our 
region's future.
    The western Lake Erie basin wetlands lie at the intersection of the 
Mississippi and Atlantic flyways. The Ottawa refuge complex is a major 
feeding, nesting and resting area for migrating birds. The same birds 
that are today taking advantage of the Lower Detroit area will likely 
visit the Lake Erie Islands and the marshes in the Ottawa National 
Wildlife refuge tomorrow. As much as 70 percent of the Mississippi 
Flyway population of black ducks use the Lake Erie marshes for 
migration.
    Lake Erie is the warmest and most biologically productive of the 
Great Lakes. The Lake Erie walleye fishery is widely considered the 
best in the world.
    I have often referred to the Lake Erie coastline and the Lake Erie 
Islands as Ohio's ``crown jewel.'' They become more precious with each 
passing day. And H.R. 4722 can help everyone who is interested in this 
incredible resource to work together.
    H.R. 4722 will help raise the profile of the Lake Erie marshlands 
and Lake Erie islands.
    It will provide another tool to facilitate voluntary land transfers 
between individuals, businesses, and local, state and Federal 
Government.
    It will engender greater cooperation between individuals, 
organizations, communities, and all levels of government. We have held 
two stakeholders meetings on this legislation one in Michigan several 
weeks ago and one in Ottawa County, Ohio (near the Ottawa refuge) just 
last week. The response from the public has been tremendous, almost 
overwhelming. My Toledo office has received more than 600 e-mails of 
support since last week's meeting alone.
    Indeed, we have received support letters not only from hundreds of 
individuals, but also governmental and non-governmental organizations, 
including county officials from each county affected by the proposed 
expansion, the property rights community in Northwest Ohio, and the 
City Council or mayor from almost every community along the affected 
shoreline. With the Committee's permission, I would like to submit 
these letters of support for the record.
    Again, Mr. Chairman, thank you for the opportunity to testify.
                                 ______
                                 
    Mr. Gilchrest. Mr. Dingell.

  STATEMENT OF THE HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, thank you. Thank you for holding 
this hearing, and thank you for your courtesy to me over the 
years and for your great leadership in the area of conservation 
of natural resources. The country owes you a debt, and I am 
proud to be here to pay tribute to you and this Subcommittee 
which under your leadership has done such an outstanding job.
    I begin by asking unanimous consent to insert my full 
statement in the record.
    Mr. Gilchrest. Without objection, so ordered.
    Mr. Dingell. Mr. Chairman, I am very happy to be a 
cosponsor of this with Ms. Kaptur, who is my dear friend and 
neighbor to the south. When I began my efforts on the Detroit 
River International Refuge, I didn't realize what was going to 
come of it, but it has achieved extraordinary success and 
popularity, and Ms. Kaptur came to me early on to discuss the 
possibility of extending it down into Ohio. I indicated that I 
was apprehensive that that would not be possible because of 
possible complications in a piece of legislation which, with 
your help and this Subcommittee, was moving along very well.
    I have worked closely with Ms. Kaptur on this matter, and 
you will note that the borders of that refuge and the borders 
of our refuge are in fact together, and that they both involve 
western and southern Lake Erie, which is a precious area. As 
Ms. Kaptur has mentioned, we have lost all but 2 percent of the 
wetlands around there.
    And I want to stress several things:
    First of all, it is not our purpose to have compulsory 
takings. That is not permitted under the legislation. We 
acquire these refuges in the same way we do all fish and 
wildlife refuges. And I know much about this because I am a 
member of the Migratory Bird Commission which superintends the 
purchase of those lands.
    The actual land acquisition is going to be very small, and 
not all of it will be in fees. As a matter of fact, the largest 
part probably will not be ownership of fee, but probably will 
be by cooperative management agreements or by purchase or gift 
of easements.
    I would tell you that the refuge in the Detroit River is 
now a great success. It is moving forward not only with the 
enthusiastic support of our people in the area, but also with 
the enthusiastic support of our Canadian neighbors who are 
moving their share of the process.
    I would note that the people in the southern part of my 
district in Monroe County came to me early on and said, 
``Dingell, why aren't you including us?'' And I said, ``Well, 
it just didn't work out that way, but we will do so at the 
earliest minute.''
    So I am here not just to speak about my own experiences, 
but to tell you about how the people of Monroe and the area in 
the southern part of my district feel about this. They 
enthusiastically support this. And Ms. Kaptur has graciously 
held a number of meetings there to discuss what it is that she 
is doing with her admirable proposal and the efforts that she 
is making to bring this into reality.
    I would note that the success which we have had has already 
brought into public ownership something like about 300 acres or 
a little more, and that more will come. We are anticipating 
that by the end of this Congress we will probably have acquired 
40 acres of land which will become a part of an administered 
area, but also a county park for our area which will be 
included within the boundaries of the refuge; and that we are 
hopeful that if everything goes right, we will achieve 
something on the order of 440 acres, which will be purchased by 
money which is now in the appropriations process.
    Cooperative management agreements are going forward, and it 
is interesting to note that a number of gifts of land, one of 
about 20 acres and one of about another 15 acres, are now 
pending. As I mentioned, the Canadians are moving forward and 
anticipate that they, using different systems of acquisition, 
will of course begin the process of building their share of the 
refuge on the Canadian side of the river and the Detroit River 
International Refuge.
    The remarkable thing which I can report to you is the 
enthusiastic support of the people in the area, both units of 
local government, the State, the conservationists, and all of 
people who are concerned with protection of the great values. 
This is an area where better than 7 million ducks and geese fly 
north and south every spring and every fall. It is also an area 
which is characterized by a remarkable, in fact an 
extraordinary spectacle which occurs every spring and fall, 
which is the migration of wonderful numbers of hawks, owls, 
eagles, raptors of different kinds who fly north and south 
along with the other migrating game birds and aquatic and other 
birds which are migratory in character.
    I will tell you, Mr. Chairman, there is no opposition to 
this legislation in my district. As a matter of fact, my people 
are delighted that this is moving forward, and this is one of 
the reasons that I am working so closely with Ms. Kaptur. The 
other two reasons are, of course, the remarkable friendship 
which we share and the great admiration I have for her; but 
also, Mr. Chairman, the fact that this is a wonderful, good 
step which affords this country an opportunity to move in new 
and different and better ways to preserve lands in areas of 
this kind where there is enormous population. And, as you very 
well know, this population is something like about 40 million 
people in the immediate vicinity of this refuge, within a 
circle of about 100, 150 miles. So populations are dense.
    People want to preserve Lake Erie. And it is loved by all 
our people in our area, including folks in Ohio, in Michigan, 
and, of course, in Canada and the rest of the adjacent Great 
Lakes States.
    So I can tell you, Mr. Chairman, that this is an admirable 
proposal. It is one which will work, it is one which will cost 
little, it is one which will do enormous good, and it is one 
which has enormous support.
    One last thought, and that is to commend the Nature 
Conservancy and the Trust for Public Lands which have been 
enormously helpful in these undertakings, as well as the other 
conservation organizations which strongly support this 
legislation, as do the elected officials at all levels in my 
district, and I am sure also in the district represented so 
ably by Ms. Kaptur.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dingell follows:]

    Statement of The Honorable John D. Dingell, a Representative in 
                  Congress from the State of Michigan

    Good morning Mr. Chairman and other distinguished Members of the 
Committee. It is an honor and a pleasure for me to join you today to 
testify in support of H.R. 4722, legislation that will create the Lake 
Erie Western Basin International Wildlife Refuge in southeast Michigan 
and northern Ohio. I thank the Subcommittee, Chairman James Hansen, and 
the Ranking Member, Nick Rahall, for their assistance and for holding 
this hearing. This legislation is of immense importance to the people 
of southeast Michigan and our neighbors in Ohio.
    Mr. Chairman, last year, thanks to support from local grassroots 
organizations, conservation groups, state and local governments, as 
well as our Canadian neighbors, we were able to pass H.R. 1230, 
legislation that created the Detroit River International Wildlife 
Refuge. This refuge is already demonstrating how--working as a team--
Federal, state, and local officials in the United States and Canada, 
can work with businesses, conservationists and private citizens to 
create something special, that will improve the quality of life for all 
our area residents.
    We passed H.R. 1230 because the Lower Detroit River is an area of 
tremendous bio-diversity, with unique geological features and a wide 
variety of plant life that attracts numerous species of fish, birds, 
and waterfowl. Like many rivers along the Great Lakes, the Detroit 
River has suffered the consequences of prolonged periods of unsound 
environmental practices. The Detroit River has lost over 95 percent of 
its coastal wetland habitats.
    In the Great Lakes region, there is a great urgency and unique 
opportunity to protect the remaining high quality habitats before they 
are lost to further development and to rehabilitate and enhance 
degraded ones. This is essential to sustain the quality of life enjoyed 
by the people living along the Detroit River corridor. The Detroit 
Wildlife Refuge was a good start, but more must be done. It is my hope 
that in time, much of the Great Lakes coastline will be protected using 
the same commonsense approach of H.R. 1230. Today, we are here to 
discuss H.R. 4722, a bill introduced by my neighbor to the south, Marcy 
Kaptur, which will establish the Lake Erie Western Basin International 
Wildlife Refuge in Ohio and Michigan. I am proud to be an original 
cosponsor of H.R. 4722, and I applaud the efforts of my colleague and 
friend from Ohio for introducing this important bill.
    The western basin of Lake Erie is vitally important to the economic 
and environmental future of the United States. In the 1970's and 
1980's, the ecological health of Lake Erie was a running joke. Water 
quality was poor, and fish and wildlife suffered accordingly. However, 
over the past two decades, the citizens and governmental institutions 
of both the United States and Canada have devoted increasing attention 
and resources to the restoration of the water quality and fisheries of 
the Great Lakes, including the western basin. Numerous grassroots 
environmental and conservation organizations have worked dutifully to 
address environmental degradation in the region. I am happy to say that 
these efforts have been successful, though there is still much more 
that must be done.
    The Great Lakes account for more than 90 percent of the surface 
freshwater in the nation. The western basin receives approximately 90 
percent of its flow from the Detroit River and only approximately 10 
percent from tributaries. The western basin of Lake Erie is an 
important ecosystem that includes a number of distinct islands, 
channels, rivers, and shoals that support dense populations of fish, 
wildlife, and aquatic plants.
    The coastal wetlands of Lake Erie support the largest diversity of 
plant and wildlife species in the Great Lakes. More than 320 species of 
birds and 43 species of fish have been identified in the aquatic and 
wetland habitats of the western basin. The shallow western basin is 
home to the largest concentration of marshes in Lake Erie, which makes 
it a major migratory bird corridor. Seventy percent of the Mississippi 
Flyway population of black ducks is concentrated in the Lake Erie 
marshes during fall migration.
    The importance of Lake Erie is manifested in the United States 
congressional designation of the Ottawa and Cedar Point National 
Wildlife Refuges. Lake Erie has an international reputation for 
walleye, perch, and bass fishing, as well as duck hunting. On an 
economic basis, Lake Erie tourism accounts for an estimate 
$1,500,000,000 in retail sales and more than 50,000 jobs.
    Coastal wetlands in the western basin have been subjected to 
intense pressure for 150 years. In fact, 98 percent of the vast coastal 
wetland system that existed in western Lake Erie in the early 1800's 
has been lost. What was once a system of 1,540 square miles today has 
been decreased to 38 square miles. Along the Michigan shoreline, 
coastal wetlands were reduced by 62 percent between 1916 and the early 
1970s. The development of the City of Monroe has had a particularly 
significant impact on the coastal wetlands at the mouth of the River 
Raisin.
    H.R. 4722 is very similar in content to H.R. 1230. It aims to 
protect the remaining fish and wildlife habitats of the western Lake 
Erie, assist in international efforts to conserve and restore wildlife 
habitat, and facilitate partnerships between the United States Fish and 
Wildlife Service, Canadian national and provincial authorities, and a 
wide array of private and public sector entities.
    In Michigan, the Refuge will run from the southern boundary of 
Sterling State Park to the eastern edge of Sandusky Bay, Ohio. The 
Secretary of Interior is authorized to acquire by donation, purchase 
with donated or appropriated funds, or grant conservation easements 
within the boundaries of the Refuge. Any and all acquisitions of lands 
are voluntary, and Federal takings are strictly prohibited. I would 
note that the Secretary shall administer all Federally owned lands, 
waters, and interests within the Refuge in accordance with the National 
Wildlife Refuge System Administration Act of 1966. Thus, the rights of 
sportsmen like myself will be fully protected.
    It is because this bill is sensible, balanced and foresighted that 
it enjoys broad local support in Michigan, Ohio and beyond. I recently 
held a meeting with local officials in Michigan, all of whom expressed 
strong support for H.R. 4722. I would note that H.R. 1230, the 
predecessor to H.R. 4722, also enjoyed broad support from business and 
conservation groups, as well as from local governments.
    Mr. Chairman, I again thank the Committee for their assistance. 
H.R. 4722 is an important piece of legislation which will be of great 
benefit to the people of Michigan, Ohio, and Ontario, and represents a 
sound approach to protecting, preserving, and restoring the wildlife 
habitat of the Great Lakes.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Dingell. I share your sense 
of urgency to move the legislation. I believe it will be 
successful up here because you have done the kind of work that 
is necessary to create a base of broad support. What is left is 
not much, and it is fragile, weak, vulnerable, and highly 
valuable. And so it will be up to our skill collectively; your 
leadership in particular, Ms. Kaptur and Mr. Dingell, for years 
of your service and conservation. You made a precedent, I 
think, in the last 6 months or so with the Wildlife Refuge 
System you proposed, and I think you again can help the Nation 
set another precedent to preserve fragile, highly valuable 
habitat in an area of heavy concentration of population the way 
it is. And the people that are helping you with this realize 
how valuable that is. So we will do all we can to work out the 
mechanics of this and get this engine running or get these 
wetlands humming for the birds.
    If there is anything else that you wanted to add or--
    Mr. Dingell. Only, Mr. Chairman, to commend you and thank 
you for what you have done already, for the great work you do, 
and to tell you how much I appreciate your labors here, and to 
tell you that I know Ms. Kaptur and I will do everything we 
possibly can to see this bill moves forward without any trouble 
or controversy which might afflict you.
    Mr. Gilchrest. Don't worry. We all have tough skins up 
here, Mr. Dingell.
    Ms. Kaptur. Thank you, Mr. Chairman, for receiving us. And 
for my good friend John Dingell, just to appear with the dean 
of the House is an honor for me. And I know that we are going 
to do something here that generations hence will wonder who did 
this, who made this happen? And our names won't matter, but 
what we did will.
    And I want to thank you, Chairman Gilchrest. As I said to 
you privately, when I hear you on the radio or the television, 
you help educate a Nation about the importance of our natural 
resources. And thank you for receiving us so graciously this 
morning.
    Mr. Gilchrest. Thank you, Ms. Kaptur and Mr. Dingell. Thank 
you very much.
    Mr. Dingell. Thank you, members of Committee.
    Mr. Gilchrest. Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, I apologize for being a 
little late, but I want to let my good friend from Michigan, 
Mr. Dingell, and Marcy Kaptur testifying in support of 
legislation, I want to add my firm support for the proposed 
bill and to have me as a cosponsor of this proposed 
legislation. Thank you, Mr. Chairman.
    Mr. Gilchrest. Our next panel will be Mr. Barry Stieglitz, 
Deputy Chief, Division of Conservation, Planning and Policy, 
U.S. Fish and Wildlife Service; Mr. Sam Speck, Director, Ohio 
Department of Natural Resources; Mr. Theodore Mastroianni, 
Special Assistant for Mayor Jack Ford, Toledo, Ohio. We might 
see Max Klinger here, I guess. I think he was going to testify 
here this morning. Ms. Melinda Huntley, Executive Director, 
Lake Erie Coastal Ohio, Incorporated; Ms. Edith Chase, 
President, Ohio Coastal Resource Management Project, 
Incorporated. Welcome to all of you.
    Mr. Gilchrest. Mr. Stieglitz, you may begin, sir.

  STATEMENT OF BARRY W. STIEGLITZ, DEPUTY CHIEF, DIVISION OF 
  CONSERVATION PLANNING AND POLICY, NATIONAL WILDLIFE REFUGE 
            SYSTEM, U.S. FISH AND WILDLIFE SERVICE;

    Mr. Stieglitz. Thank you, and good morning, sir.
    Mr. Chairman, and members of the Subcommittee, I request 
that my testimony be made part of the official record.
    Mr. Gilchrest. Without objection.
    Mr. Stieglitz. Thank you, sir. I am Barry Stieglitz. I am 
here today as the acting chief of the National Wildlife Refuge 
System. I appreciate the opportunity to provide the 
Administration's view on H.R. 4722, authorizing the 
establishment of the Lake Erie Western Basin International 
Wildlife Refuge.
    As will be discussed later, the Administration cannot 
support this legislation. However, before explaining why, I 
would like to begin by giving you a brief summary of Fish and 
Wildlife Service's involvement in the Lake Erie region. Coastal 
wetlands within the Western Basin of Lake Erie are of 
significant importance to fish and wildlife trust resources. 
These wetlands provide spawning, nursery, and rearing habitat 
for 43 wetland-dependent fish species, 26 of which have 
recreational, commercial, or prey value. More than 325 species 
of birds can also be found in the Western Lake Erie Basin, and 
the area annually attracts hundreds of thousands of migrating 
waterfowl. In addition, the area is an important staging area 
for migrant songbirds.
    Recognizing the importance of these resources, the State of 
Ohio established numerous State wildlife areas, nature 
reserves, and parks in the region. The Service is active in its 
efforts to protect and restore coastal wetlands within this 
geographic area, and we realize the economic, recreational, and 
environmental benefits of protecting and restoring the coastal 
wetlands of Lake Erie. In fact, we have four existing refuges 
in the general area. These refuges, as you are aware, are the 
Ottawa, Cedar Point, and West Sister Island National Wildlife 
Refuges, as well as the Detroit River International Wildlife 
Refuge.
    The National Wildlife Refuge System Improvement Act of 1997 
requires the Service to develop a comprehensive conservation 
plan, or CCP, for each refuge in the National Wildlife Refuge 
System. The CCP is intended to describe the desired future 
conditions of a refuge and provide long-range guidance and 
management direction to achieve the refuge's purposes--in other 
words the reason a refuge was established. It is during this 
process that expansion of a refuge may be recommended by the 
public, State, or a member of any other group that is 
considered a stakeholder in the area. These recommendations are 
then considered by the Service. If increasing the size of a 
refuge will help fulfill the purpose or purposes for which a 
refuge was established, the service provides these 
recommendations to the Administration.
    The development of the CCP provides a forum for meaningful 
public participation and improved coordination with the States 
and local communities, and also affords local citizens an 
opportunity to help shape future management of a refuge, 
recognizing the important role refuges can play as part of the 
community. We have begun preparation of the CCP for the newly 
established Detroit River International Wildlife Refuge, which 
will include a review of the Michigan portion of the proposed 
Lake Erie Western Basin International Wildlife Refuge.
    In 1994, we proposed an expansion for the Ottawa National 
Wildlife Refuge Complex, including Ottawa, Cedar Point, and 
West Sister Island National Wildlife Refuges. After public 
review and comment, we adopted an increase in the size of the 
complex, totaling 5,000 acres, including high-priority wetland 
habitat areas in Lucas, Sandusky, Ottawa, and Erie Counties, 
the same general geographic area as the Ohio portion of the 
proposed refuge.
    In 2000, we completed the CCP for the Ottawa complex. After 
extensive public review and comment, the CCP did not propose an 
expansion beyond the 5,000 acres previously approved in 1994.
    In contrast to the 5,000-acre expansion included in the 
CCP, H.R. 4722 would commit the Service to a massive expansion 
of the refuge system in the same area. The geographic scope of 
the proposal includes over 175 miles of coastline, covering 
100,000 acres or more. The administration is committed to 
taking better care of what we have, while ensuring that new 
acquisitions truly meet the strategic growth needs of the 
National Wildlife Refuge System.
    There must be a balance between acquiring new lands and 
meeting the operational, maintenance, and restoration 
requirements of the resources already under public ownership. 
Toward this end, the Service is currently developing a plan to 
guide future growth and land acquisition for the refuge system. 
Establishing new refuges or significantly expanding existing 
refuges requires shifting operation and maintenance funds from 
existing refuges. While the President's budget proposes a 
funding increase for the refuge system of more than $56 
million, that funding is already committed to addressing high-
priority critical mission operations and maintenance projects 
at existing refuges. To date we have identified $1.1 billion in 
optimal refuge operational needs and $663 million in pending 
maintenance projects in the refuge system.
    Currently, the Ottawa National Wildlife Refuge Complex has 
100 deferred maintenance projects in our maintenance management 
system, or MMS, at a combined cost of $4.9 million, and 12 
projects totaling $1.5 million in our priority Tier 1 refuge 
operational needs system, or RONS.
    We appreciate that Representative Kaptur and her 
constituents seek to have the Service expand its role in the 
Lake Erie Basin; however, given our recent and impending 
reviews of habitat needs for Federal trust species in the area, 
we cannot support H.R. 4722.
    In addition to the national priorities and funding 
constraints discussed, we have already evaluated a major 
portion of this area and are in the process of evaluating the 
remainder, through the CCP process.
    After a careful review of the Ohio portion of the land 
covered by this bill, we have concluded after two different 
public comment periods several years apart that a 5,000-acre 
expansion of refuge system holdings is all that is needed. We 
are now initiating such a review of the Michigan lands covered 
by this legislation through the Detroit River International 
Wildlife Refuge CCP.
    H.R. 4722, in contrast, would expand the refuge system on a 
potentially massive scale. Given that we have concluded in 
consultation with our stakeholders less than 2 years ago that 
such a large-scale expansion in this area is not needed, we 
cannot now support it.
    We note that opportunities and tools other than including 
lands in the refuge system exist for protecting resources in 
Lake Erie's Western Basin. Service programs, such as Partners 
for Fish and Wildlife, the Northern Americans Wetlands 
Conservation Act, the Landowner Incentive Program, and private 
stewardship grants can be used in cooperation with State, 
local, and private partners to restore and protect natural 
resources. The States of Ohio and Michigan also receive funds 
through the Federal Aid and Wildlife Restoration and Federal 
Aid and Support Fish Restoration; and, if approved by Congress, 
Land and Water Conservation Fund, cooperative conservation 
initiatives through the National Park Service, which could be 
used toward this end if the States so choose.
    This concludes my proposed statement. I would be pleased to 
respond to any questions you may have now or at a later time. 
Thank you.
    Mr. Gilchrest. Thank you very much, Mr. Stieglitz.
    [The prepared statement of Mr. Stieglitz follows:]

 Statement of Barry Stieglitz, Deputy Chief, Division of Conservation 
Planning and Policy, National Wildlife Refuge System, Fish and Wildlife 
                Service, U.S. Department of the Interior

    Mr. Chairman, and members of the Subcommittee, I am Barry 
Stieglitz, Deputy Chief of the Division of Conservation Planning and 
Policy for the National Wildlife Refuge System. I appreciate this 
opportunity to provide the Administration's views on H.R. 4722, 
authorizing the establishment of the Lake Erie Basin International 
Wildlife Refuge. As discussed more fully below, the Administration 
cannot support this legislation.
    I would like to begin by giving you a brief summary of Fish and 
Wildlife Service (Service) involvement in the Lake Erie region. Coastal 
wetlands within the western basin of Lake Erie are of significant 
importance to fish and wildlife trust resources. These wetlands provide 
spawning, nursery and rearing habitat for some 43 wetland-dependent 
fish species, 26 of which have significant recreational, commercial or 
prey value. More than 325 species of birds can be found in the western 
Lake Erie basin, and the area annually attracts hundreds of thousands 
of migrating waterfowl. The area is also an important staging area for 
migrant songbirds. Recognizing these important resources, the State of 
Ohio established numerous State Wildlife Areas, Nature Preserves, and 
Parks in this region.
    The Service is active in efforts to protect/restore coastal 
wetlands within this geographic area and we realize the economic, 
public use and environmental benefits of protecting and restoring the 
coastal wetlands of Lake Erie. In fact, we have four existing refuges 
in the general area. These refuges are the Cedar Point National 
Wildlife Refuge (NWR), Ottawa NWR, West Sister Island NWR, and the 
recently established Detroit River International Wildlife Refuge.
    The National Wildlife Refuge System Improvement Act of 1997 
requires the Service to develop a Comprehensive Conservation Plan (CCP) 
for each refuge in the National Wildlife Refuge System. The CCP 
describes the desired future conditions of a refuge and provides long-
range guidance and management direction to achieve refuge purposes. It 
is during this process that expansion of a refuge is considered and 
recommended, if increasing the size will help fulfill the mission for 
which the refuge was established. Development of a CCP provides a forum 
for meaningful public participation and improved coordination with the 
states and local communities. It also affords local citizens an 
opportunity to help shape future management of a refuge, recognizing 
the important role of refuges in nearby communities.
    We are now preparing a draft CCP for the newly established Detroit 
River International Wildlife Refuge, which will include review of the 
Michigan portion of the proposed Lake Erie Basin International Wildlife 
Refuge.
    In 1994 we proposed an expansion for the Ottawa NWR Complex, which 
includes Cedar Point, Ottawa and West Sister Island. After public 
review and comment, we adopted an increase in the size of the complex 
totaling 5,000 acres, by including high-priority wetland habitat areas 
in Lucas, Sandusky, Ottawa and Erie Counties, the same general 
geographic area as the Ohio portion of the proposed Lake Erie Basin 
International Wildlife Refuge.
    In 2000, we completed a CCP for the Ottawa NWR Complex. After 
extensive public review and comment, this CCP did not propose an 
expansion for the Complex beyond the 5,000 acres previously approved.
    In contrast to the 5,000-acre expansion included in the CCP, H.R. 
4722 would commit the Service to a massive expansion of the Refuge 
System in the same area. The geographic scope of the proposal includes 
over 175 miles of coastline covering a hundred thousand acres or more.
    The Administration is committed to taking better care of what we 
have, while ensuring that new acquisitions truly meet strategic needs 
of the Refuge System. There must be a balance between acquiring new 
lands and meeting the operational, maintenance and restoration 
requirements for the resources already in public ownership. Towards 
this end, the Service is currently developing a plan to guide future 
growth and land acquisition for the Refuge System.
    Establishing new refuges, or significantly expanding existing ones 
requires shifting operation and maintenance funds from existing 
refuges. While the President's budget proposes a funding increase for 
the Refuge System of more than $56 million, that money is already 
committed to addressing high-priority critical mission operations and 
maintenance needs at existing refuges.
    We have identified $1.1 billion in optimal refuge operational needs 
and $663 million in pending maintenance projects for the National 
Wildlife Refuge System. Currently, the Ottawa NWR, Cedar Point NWR, and 
Sister Point NWR have 100 deferred maintenance projects in our 
Maintenance Management System at a combined cost of $4.9 million and 12 
projects, totaling $1.5 million in our priority Tier 1 Refuge 
Operational Needs System.
    We appreciate that Representative Kaptur and her constituents seek 
to have the Fish and Wildlife Service expand its role in the Lake Erie 
Basin. However, given our recent and impending reviews of habitat needs 
for Federal trust species in this area, we cannot support H.R. 4722.
    In addition to the national priorities and funding constraints 
discussed above, we have already evaluated a major portion of this 
area, and are in the process of evaluating the remainder. After a 
careful review of the Ohio portion of the land covered by this bill, we 
have concluded, after two different public comment periods several 
years apart, that a 5,000-acre expansion of Refuge System holdings is 
all that is needed. We are now initiating such a review of the Michigan 
lands covered by this legislation through the Detroit River 
International Wildlife Refuge CCP.
    H.R. 4722, in contrast, would expand the Refuge System on a 
potentially massive scale. Given that we concluded less than two years 
ago that such a large-scale expansion in this area was not needed, we 
cannot support it now.
    We note that other opportunities and tools beside including lands 
in the Refuge System exist for protecting resources in Lake Erie's 
Western Basin. Service programs such as Partners for Fish and Wildlife, 
the North American Wetlands Conservation Act, the Landowner Incentive 
Program, and Private Stewardship Grants can be used in cooperation with 
State, local and private partners to restore and protect natural 
resources. The States of Ohio and Michigan also receive funds through 
the Federal Aid in Wildlife Restoration, Federal Aid in Sport Fish 
Restoration, and, if approved by Congress, Land and Water Conservation 
Fund Cooperative Conservation Initiative grants through the National 
Park Service which could be used towards this end if the States so 
chose.
    This concludes my proposed statement. I would be pleased to respond 
to any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Mr. Speck.

 STATEMENT OF SAM SPECK, DIRECTOR, OHIO DEPARTMENT OF NATURAL 
   RESOURCES, ACCOMPANIED BY MICHAEL J. BUDZIK, CHIEF, OHIO 
                      DIVISION OF WILDLIFE

    Mr. Speck. Thank you, Chairman Gilchrest and members of the 
Subcommittee. We appreciate the opportunity to testify today on 
H.R. 4722, which would provide for the establishment of the 
Lake Erie Western Basin Wildlife Refuge in both Ohio and 
Michigan. I am Samuel Speck, Director of the Department of 
Natural Resources, a State agency responsible for the 
management and wise use of natural resources in the Ohio 
portion of Lake Erie and its coastal region. I also serve as 
vice-chair of the Lake Erie Commission, chair of the Ohio Lake 
Erie Commission, and chair of the Council of Great Lakes 
Governors and Premiers water management working group, although 
I am not claiming to speak on behalf of those groups today.
    I would also like to introduce Mike Budzik, who is the 
chief of our Wildlife Division and would be glad to assist in 
any questions that you may have.
    The Department has reviewed this legislation to evaluate 
the potential impacts of developing a Federally owned refuge 
for the purpose of protecting fish and wildlife habitats of the 
Western Basin of Lake Erie, and to assist in international 
conservation, restoration, and enhancement of these resources. 
After considerable review, discussion internally and with key 
constituent organizations with whom we collaborate, the 
Department is pleased to endorse this legislation. We have a 
vested interest in the protection of natural and recreational 
resources in the Lake Erie area.
    Specifically, we are charged with the management of 2-1/4 
million acres of Lake Erie under Ohio's jurisdiction; we also 
have important responsibilities affecting the management of 
more than 5.8 million acres of land and 5,000 miles of 
tributary streams in the lake's western basin, coastal and 
watershed resources that directly affect the health and 
vitality of the lake itself. These responsibilities include 
stewardship of important coastal wetland habitat along the 
lake's western shore, where the State Department of Natural 
Resources and the Federal Fish and Wildlife Service manage in 
total some 18,000 acres of Lake Erie marshland.
    We already have a strong partnership relationship with Fish 
and Wildlife Service; for example, where our Magee Marsh State 
Wildlife area adjoins directly the Ottawa National Wildlife 
Refuge.
    As envisioned, the proposed Western Basin Wildlife Refuge 
would greatly enhance the opportunities for further cooperative 
efforts to protect these critical habitats while providing 
public access for recreation and education.
    The waters of Lake Erie are the most biologically 
productive of the Great Lakes, as this one lake alone in most 
years produces more pounds of fish than all of the other Great 
Lakes combined.
    As a result, Lake Erie is one of North America's most 
popular sport fishing destinations. It is estimated that more 
than half a million people fish in the Ohio waters of Lake Erie 
every year, contributing many millions of dollars to the Ohio 
economy. This makes proper fish management an economic as well 
as an ecological necessity. As a result, Ohio has developed 
strategies in collaboration with other Lake Erie States and the 
Province of Ontario and other interested parties pertaining to 
lakewide research and assessments and harvest allocations and 
habitat protection and restoration projects and other 
management efforts in order to establish regulations necessary 
to protect and enhance the fishery.
    I might add, in Ottawa County, which sells more fishing 
licenses than any other county in the State of Ohio, the 
majority of those licenses are actually going to out-of-state 
people. So it is much more than just something for Ohio and 
Ohio's economy that we are talking about.
    The western Lake Erie marsh region and its wetlands provide 
for an abundance of species, as previous testaments have 
indicated. It is not unusual for a lakeshore visitor on any 
given day to observe a wide range of waterfowl. One of the 
things we are most proud of is the 79 pair of breeding bald 
eagles that we now have, with 104 young this year.
    I see my time is escaping, and I would like to move to some 
of the points with which I wanted to conclude.
    We think there are a number of important, indeed critical, 
elements in this proposal: that it is based upon strictly 
voluntary acquisition from willing sellers and donors; that it 
focuses on the lake and its immediate coastal area, including 
the exceptional resources of the Lake Erie Islands. That it 
provides for partnerships as key building blocks; partnerships 
with the public, private entities, the State, the Federal and 
local governments--and I would be glad to provide you with 
further examples of where we think that could go--that it is 
based upon the doctrine of multiple use, ensuring that hunting, 
fishing, wildlife observation, photography, and environmental 
education and interpretation are its primary public uses.
    And, it is visionary. The proposed refuge and the 
philosophy of natural resources management it embodies 
addresses what we believe are important things as we plan for 
Lake Erie. And Mr. Chair, I am leaving a copy of our Lake Erie 
Protection and Restoration Plan which indicates the steps that 
we are already taking and how this would mesh with that plan.
    Finally, it meshes with other areas of Federal-State 
cooperation. For example, together with the Department of 
Agriculture, we are involved in a quarter of a billion dollar 
effort in 27 counties of northwestern Ohio that are part of the 
watershed through the Conservation Reserve Enhancement Program 
to further protect the waters flowing into the Great Lakes.
    Finally, I would close by saying that we certainly 
understand the predicament of the Federal Fish and Wildlife 
Service, the enormous burden that they have in trying to 
protect what we already have placed in refuge. And we 
understand that, and we believe that that is certainly an 
important priority. We see this as more of an opportunity to 
make a commitment to the future as other funds become available 
and as donors step forward to provide additional monies that 
would protect more area than is currently committed to be 
protected.
    So we don't see this as something that is going to happen 
overnight, something where the money must be spent overnight, 
but that it sort of says to everyone that this is our vision 
for the future and, as resources can be committed, we will move 
in this direction.
    Thank you for the time and opportunity to be before you. 
And, again, I like others will be glad to answer any questions 
you have at your pleasure.
    [The prepared statement of Mr. Speck follows:]

                Statement of Samuel W. Speck, Director, 
                  Ohio Department of Natural Resources

    Chairman Gilchrest and members of the Subcommittee, thank you for 
the opportunity to testify today on H.R. 4722, which would provide for 
establishment of the Lake Erie Western Basin Wildlife Refuge in both 
Ohio and Michigan. I am Samuel W. Speck, director of the Ohio 
Department of Natural Resources a state agency responsible for the 
management and wise use of resources in Ohio's portion of Lake Erie and 
its coastal region.
    I also serve as vice-chair of the Great Lakes Commission, chair of 
the Ohio Lake Erie Commission and chair of the Council of Great Lakes 
Governors and Premiers water management working group, although my 
comments today are not given on behalf of those organizations.
    The Ohio Department of Natural Resources has reviewed H.R. 4722 to 
evaluate the potential impacts of developing a Federally owned refuge 
for the purpose of protecting the fish and wildlife habitats of the 
western basin of Lake Erie and to assist in international conservation, 
restoration and enhancement of these resources. After considerable 
review and discussion internally and with key constituent organizations 
we serve the Department is pleased to endorse this legislation.
    The Department has a vested interest in the protection of natural 
and recreational resources in the Lake Erie area. Specifically, we are 
charged with the management of two and a quarter million acres of Lake 
Erie under Ohio's jurisdiction. We also have important responsibilities 
affecting the management of more than 5.8 million acres of land and 
5,000 miles of tributary streams in the lake's western basin coastal 
and watershed resources that directly affect the health and vitality of 
the lake itself.
    These responsibilities include stewardship of important coastal 
wetland habitat along the lake's western shore, where the state 
Department of Natural Resources and the Federal Fish & Wildlife Service 
manage, in total, nearly 18,000 acres of Lake Erie marshland. We 
already have a strong partnership relationship with the Fish & Wildlife 
Service for example where our Magee Marsh State Wildlife Area adjoins 
the Ottawa National Wildlife Refuge. As envisioned, the proposed 
Western Basin Wildlife Refuge would greatly enhance opportunities for 
further cooperative efforts to protect these critical habitats while 
providing public access for recreation and education.
    The waters of Lake Erie are the most biologically productive of the 
Great Lakes, as this one lake alone in most years produces more pounds 
of fish than the all the other Great Lakes combined.
    As a result, Lake Erie is one of North America's most popular sport 
fishing destinations. It is estimated that more than a half-million 
people fish in the Ohio waters of Lake Erie every year contributing 
many millions of dollars to Ohio's economy. This makes proper fish 
management an economic as well as an ecological necessity. As a result, 
Ohio has developed strategies in collaboration with the other Lake Erie 
states (Michigan, Pennsylvania, New York), the Province of Ontario, and 
other interested parties pertaining to lake-wide research and 
assessments, harvest allocations, habitat protection, restoration 
projects, and other management efforts in order to establish 
regulations necessary to protect and enhance this fishery.
    The western Lake Erie marsh region and its wetlands provide for an 
abundance of species, as H.R. 4722 points out. It is not unusual for a 
lakeshore visitor on any given day to observe waterfowl including 
mallards, widgeons, songbirds, swans, herons, egrets, Canada geese and, 
yes, cormorants.
    Also, this area is a home to deer, red foxes, cottontail rabbits, 
fox squirrels, and a variety of reptiles and amphibians as well as bald 
eagles, a particular point of pride for those of us who manage wildlife 
resources in the region. Virtually gone from the state by the mid-
1950s, the bald eagle population has been successfully restored thanks 
to vastly improved lake environment and careful management of coastal 
resources. This spring, 79 breeding pairs of bald eagles produced 104 
young in Ohio most of them in the coastal marshes of the western Lake 
Erie basin.
    While our Department plays a key role in the management of the lake 
region's fish and game resources, we also manage nearly 1,600 acres of 
property within the western basin for an exceptional variety of plants, 
including habitats of prairie wildflowers, sedge meadows, sand dunes, 
oak openings, an open water estuary all habitat for unique and often 
rare plant and animal species.
    Also in the western basin area, our Department manages eight state 
parks that consist of nearly 3,500 land acres. This property includes 
campsites, launch ramps, swimming beaches, picnic areas and hiking 
trails that provide for various recreational opportunities along the 
lake benefitting a multitude. And, we oversee recreational boating, 
with more than 417,000 registered recreational watercraft the majority 
of which spend all or a good portion of time in Lake Erie waters. As a 
result, there are more than 300 marinas along Ohio's 262 miles of Lake 
Erie shoreline, and prime boating opportunities abound.
    Reviewing H.R. 4722 from the perspective of these diverse 
responsibilities on Lake Erie, the Ohio Department of Natural Resources 
strongly supports the creation of the Lake Erie Western Basin Wildlife 
Refuge, as proposed in this legislation. We agree that development of 
such a refuge will help to ensure an abundance of ecological and 
conservation improvements that will truly benefit this ``Great Lake'' 
and the millions of Americans who benefit from it.
    In particular, we note features of this legislation that support 
our existing and to date very successful efforts by Ohio and its Lake 
Erie partners to protect the lake's resources and ensure their future 
well-being:
    <bullet> The development of this wildlife refuge is based strictly 
upon on the voluntary acquisition of land from willing sellers or 
donors.
    <bullet> It is focused on the lake and its immediate coastal area, 
including the exceptional resources of the Lake Erie islands.
    <bullet> It provides for partnerships as its key building blocks: 
partnerships of public and private entities and of state, Federal and 
local governments.
    <bullet> It is based on a doctrine of multiple use, ensuring that 
hunting, fishing, wildlife observation and photography, and 
environmental education and interpretation are its primary public uses.
    <bullet> And it is visionary. The proposed refuge and the 
philosophy of natural resources management it embodies address what we 
in Ohio are doing as we work toward our regional, state and local goals 
for the future of Lake Erie.
    These are goals addressed in the Lake Erie Protection and 
Restoration Plan, prepared by Governor Bob Taft and his administration 
as Ohio's long-term action agenda for improving the environmental, 
recreational and economic assets of our state's single most important 
natural resource.
    Finally, establishment of the Lake Erie Western Basin Wildlife 
Refuge would complement important Federal/state/local investments being 
made in this resource, including a $201 million Conservation Reserve 
Enhancement Program in the lake's western watershed, new and aggressive 
efforts by state and local partners to eliminate nonpoint source 
pollution in tributary streams and the acquisition of key lakeshore 
properties for public use and recreation.
    Should the proposed refuge come to fruition, we in Ohio would look 
forward to greatly strengthening important efforts already underway as 
we work with the U.S. Fish and Wildlife Service, the State of Michigan, 
our Canadian partners and others to ensure that our resources within 
the lake's Western Basin and the entire Lake Erie watershed continue to 
thrive for future generations
    Thank you for the opportunity to testify today. I will gladly 
respond to any questions.
                                 ______
                                 
    Mr. Gilchrest. What was that book you held up, Mr. Speck?
    Mr. Speck. Pardon?
    Mr. Gilchrest. The book you held up.
    Mr. Speck. This is the plan developed by the Lake Erie 
Commission and introduced by--announced by Governor Taft of the 
lake Erie Protection and Restoration Plan that the State 
government agencies, in cooperation with a wide range of 
partners, have developed as our long-range plan for the 
protection and restoration of the Ohio part of Lake Erie.
    Mr. Gilchrest. Thank you. Is Lake Erie Western Basin 
International Wildlife Refuge mentioned in that plan?
    Mr. Speck. No. Because this plan was done in 2000, and I 
don't think we were that far along with this proposal at that 
time. But certainly Ottawa was considered to be an integral 
part of our work as well as the other Federal sites.
    Mr. Gilchrest. I see. Thank you.
    Mr. Gilchrest. Mr. Theodore Mastroianni.

STATEMENT OF THEODORE MASTROIANNI, SPECIAL ASSISTANT FOR MAYOR 
                    JACK FORD, TOLEDO, OHIO

    Mr. Mastroianni. Mr. Chairman, members of the Subcommittee, 
thank you for allowing me to testify before this body on behalf 
of the Mayor of Toledo, Ohio. The Mud Hens also say hello.
    Mayor Jack Ford sends his greetings to the Subcommittee 
members and to Congresswoman Marcy Kaptur. I also want to thank 
our Member of Congress, Congresswoman Marcy Kaptur, for 
introducing H.R. 4722. We are very proud and honored to be 
represented by Ms. Kaptur.
    My name is Theodore Mastroianni. I am employed by the City 
of Toledo as a special consultant for operations. I have served 
in different capacities in government for over 35 years. During 
those years, I served in two major cities as an official in the 
Departments of Parks, Recreation, and Cultural Affairs.
    I want to convey Mayor Jack Ford's commitment to this 
important H.R. 4722. As we read through it, the bill made clear 
sense to include Canada, our bordering States, Federal 
agencies, and local jurisdictions in addressing the problems 
and challenges facing us. We are not only a multistate region, 
but an international region as well. We all enjoy Lake Erie, 
and are collectively responsible for its well-being and for the 
wetlands, swamps, and rivers feeding it.
    One item that caught our attention was a documentation of 
the lost coastal marsh and swamp system of the western basin 
starting after 1850. According to H.R. 4722, prior to that 
year, 1850, we had approximately 122,000 hectors, or 305,000 
acres. By 1951, only 12,407 hectors remain. Half of that total 
was lost between 1972 and 1987. Only 5,000 hectors, or 12,500 
acres remain. Let me repeat this. We have only 5,000 hectors or 
12,500 acres left from 305,000 acres. All was lost within the 
last 150 years.
    The Canada-Ontario Agreement respecting the Great Lakes 
Basin Ecosystem states: Wetlands are valuable pieces of real 
estate. They are natural water filtration plants and flood 
control reservoirs and tourist sites.
    Why do we need to protect our wetlands, marshes and swamps? 
Only for the birds and other wildlife? Well, let's look at the 
hard side of it. Let's look at the economic side. The City of 
Toledo has had a stormwater sewage problem for many years. When 
severe storms and heavy rains hit the surrounding area, our 
storm system cannot handle the load. In turn, the stormwater 
floods the raw sewage filtration systems and forces raw sewage 
into our streams, rivers, and Lake Erie.
    When marshes, swamps, and wetlands existed, water was 
diverted naturally to those areas. The waters were filtered 
through the wetlands into Lake Erie. As we developed and filled 
in the wetlands, our problems grew. No wonder the loss from 
305,000 to 12,5000 acres has created a problem.
    What does this mean to Toledo and its citizens? It means an 
Environmental Protection Agency and the Justice Department suit 
has been ordered to correct the problem. The correction will 
mean $400 million in costs and doubling of the water and sewage 
rates for our citizens. If we continue losing our wetlands and 
not try to restore them, what will be the additional cost to 
the region and to this city?
    Even though many of us want to save the wetlands, it is 
more than just saving the beauty of a wetland marsh or swamp, 
to hear the frogs and birds sing, or to see the butterflies 
move along the wildflowers on a summer morning. It is to 
appreciate the love of life. It means tourists can snap 
photographs. It means all of us can enjoy the beauty.
    These areas are also needed so the fish in Lake Erie can 
procreate in the wetlands. These areas also give life to many 
species that are vital to our well-being, and it can help 
control flooding. According to the U.S. Geological Survey Fact 
Sheet, F S093-01, August 2001, it states: Lake Erie is the 11th 
largest freshwater lake in the world, and has the most 
productive fishing in all of the Great Lakes.
    When someone asks, ``What use is that wetland?'' and ``It 
won't cost us anything to fill it in and develop,'' ask them 
about the $400 million storm sewage system that must be 
enlarged and improved, or ask the fishermen who complain about 
the depletion of fish in the lake.
    The City of Toledo thinks this is more than just saving 
some swamp area. This is about improving our quality of life 
and the thousands of people who will live after us.
    I close with this quote from Mr. Aldo Leopold, an American 
naturalist, a Midwestern citizen, and an author:
    ``we abuse land because we regard it as a commodity 
belonging to us. When we see land as a community to which we 
belong, we may begin to use it with love and respect.''
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you very much, Mr. Mastroianni. Well 
said.
    Mr. Mastroianni. Thank you, sir.
    [The prepared statement of Mr. Mastroianni follows:]

 Statement of Theodore Mastroianni, Representing Mayor Ford of Toledo, 
                                  Ohio

    Mr. Chairman, Members of the Subcommittee, thank you for allowing 
me to testify before this body on behalf of the Mayor of Toledo, Ohio. 
Mayor Jack Ford sends his greetings to the Subcommittee members and to 
Congresswoman Marcy Kaptur. I also want to thank our Member of 
Congress, Congresswoman Marcy Kaptur for introducing H.R. 4722. We are 
very proud and honored to be represented by Ms. Kaptur.
    My name is Theodore Mastroianni. I am employed by the City of 
Toledo as a special consultant for operations. I have served in 
different capacities in government for over 35 years. During those 
years, I served in two major cities as an official in the Departments 
of Parks, Recreation and Cultural Affairs.
    I want to convey Mayor Jack Ford's commitment to this important 
H.R. 4722. As we read through it, the Bill made clear sense to include 
Canada, our bordering states, Federal agencies and local jurisdictions 
in addressing the problems and challenges facing us. We are not only a 
multi state region but an international region as well. We all enjoy 
Lake Erie and are collectively responsible for its well-being and for 
the wetlands, swamps and rivers feeding it.
    One item that caught our attention was the documentation of the 
lost coastal marsh and swamp system of the Western Basin starting after 
1850. According to H.R. 4722, prior to that the year 1850, we had 
approximately 122,000 hectares or 305,000 acres. By 1951 only 12,407 
hectares remained. Half of that total was lost between 1972 and 1987. 
Only 5,000 hectares or 12,500 acres remain. Let me repeat this: we have 
only 5,000 hectares or 12,500 acres left from 305,000 acres. All was 
lost within 150 years.
    The Canada/Ontario Agreement Respecting the Great Lakes Basin 
Ecosystem states, `` Wetlands are valuable pieces of real estate. They 
are natural water filtration plants and flood control reservoirs...and 
tourist sites.
    Why do we need to protect our wetlands, marshes and swamps? Only 
for the birds, and other wildlife? Well, let's look at the hard side of 
it. Let's look at the economic side. The City of Toledo has had a storm 
water sewage problem for many years. When severe storms and heavy rains 
hit the surrounding area, our storm system cannot handle the load. In 
turn, the storm water floods the raw sewage filtration system and 
forces raw sewage into our streams, rivers and Lake Erie. When marshes, 
swamps and wetlands existed, water was diverted naturally to those 
areas. The waters were filtered through the wetlands into Lake Erie. As 
we developed and filled in the wetlands our problems grew. No wonder 
the loss from 305,000 acres to 12,500 acres has created a problem. What 
does this mean to Toledo and its citizens? It means an Environmental 
Protection Agency and a Justice Department suit has been ordered to 
correct the problem. The correction will mean $400 million dollar in 
costs and doubling of the water and sewage rates for its citizens. If 
we continue losing our wetlands and not try to restore them what will 
be the additional cost to the region and the city?
    Even though many of us want to save the wetlands, it is more than 
just saving the beauty of a wetland, marsh or swamp. To hear the frogs 
and birds sing or to see the butterflies move along the wild flowers on 
a summer morning. It is to appreciate the love of life. It means 
tourists can snap photographs. It means all can enjoy the beauty. These 
areas are also needed so the fish in Lake Erie can procreate in the 
wetlands. These areas also give life to many species that are vital to 
our well-being and it can help control flooding.
    According to the U.S. Geological Survey Fact Sheet FS093-01, August 
2001, states, ``Lake Erie is the 11th largest fresh water lake in the 
world and has the most productive fishing in all of the Great Lakes.'' 
When someone asks, ``What use is that wetland?'' and ``It won't cost us 
anything to fill it in and develop?'' ask them about the $400 million 
dollar storm sewage system that must be enlarged and improved or ask 
the fisherman who complains about the depletion of fish in the Lake.
    The City of Toledo thinks this is more than just saving some swamp 
area; this is about improving our quality of life and the thousands of 
people who will live after us. I close with this quote from Mr. Aldo 
Leopold, an American naturalist, a Midwestern citizen and an author, 
``We abuse land because we regard it as a commodity belonging to us. 
When we see land as a community to which we belong, we may begin to use 
it with love and respect.''
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Ms. Melinda Huntley. Welcome.

       STATEMENT OF MELINDA HUNTLEY, EXECUTIVE DIRECTOR, 
                  LAKE ERIE COASTAL OHIO, INC.

    Ms. Huntley. Thank you. Good morning, Mr. Chairman, members 
of the Subcommittee and staff. My name is Melinda Huntley, and 
I am Executive Director of Lake Erie Coastal Ohio. This is a 
new nonprofit organization that has been formed to really 
change the way we look at Lake Erie. Together with tourism 
professionals and resource managers along the shoreline, we are 
developing a nature-based tourism strategy for the lake. 
Tourism is pretty hard to get your hands around. It is not like 
you can drive down the interstate and you see a factory that 
says ``Tourism made here.'' We can't be neatly bottled or 
packaged and placed on a shelf, but we are an important 
industry.
    Ms. Huntley. In fact, for some communities of the Lake Erie 
Western Basin area we are defined as being their GM plant. 
Tourism generates over $7 billion for the Lake Erie coastal 
area and is responsible for supporting over 260,000 jobs.
    But we are an industry at risk. Over the last 6 years we 
have lost approximately 21 percent market share. One of the 
reasons for this is our inability to respond to changing 
consumer trends, and thus we have not diversified our product.
    We are not as well known for our massive glacial bedrock 
systems, or spectacular spring migratory systems as we are 
known for our roller coasters, which has created a complete 
dependence on the family travel market which is highly 
seasonal. This results in an economy that has--72 percent of 
all Ohio trips are actually marketable trips, are seasonal 
trips compared to the U.S. Norm of about 62 percent.
    Our season used to extend from Memorial Day until Labor 
day. Now we have shrunk to about 5 weeks. A lot of this is due 
to the fact that we have increased time demands in the family 
market. Those of you who have children know you have baseball 
camps, baseball games, church camps, you name it, that extend 
to mid-July, only to follow up with football practices and band 
camps in early August. The family market is shrinking. Dual 
working parents have also complicated the situation, creating a 
complete dominance of the area on weekend travel only.
    If Lake Erie continues to focus only on those attractions 
that appeal to the family travel vacation market we will 
continue to be faced with shrinking seasons and weekend travel 
domination. This leads to price cutting, less visitor spending 
and continued decline of tax revenues.
    On the other hand, nature tourism is growing at 10 to 30 
percent, compared to typical travel at 4 percent. They include 
hiking, fishing, photography, visiting historic areas and 
natural sites.
    But the fastest-growing recreational activity out there 
right now is bird watching, which has increased 301 percent 
since 1982. If you find that hard to believe, consider David 
Sibley's bird identification book spent multiple weeks on the 
New York Times Best-seller List and at one time was number 20 
on Amazon.com as a bestseller.
    The proposed expansion area is located at the junction of 
two major flyways that bring in neotropical warbler migrations 
spring and fall. This means it also brings in the bird watchers 
who come to see these species. In fact, bird watching generates 
over $5.6 million for businesses surrounding the Ottawa Refuge 
area. These nature tourists have both discretionary time and 
dollars. They travel midweek and they also travel year-round 
because, unlike an amusement park, nature's attractions change 
every day.
    The Western Basin expansion will expand public access. 
People are desiring places that are remote and untouched, and 
along Lake Erie we are not remotely untouched.
    Mr. Chairman, we do not have a Grand Canyon. We do not have 
a Yosemite. But we do have one of the most prolific and best 
freshwater lakes on the planet. Yet we haven't done a real good 
job of providing access to that resource. In fact, only 15 
percent of the lake shoreline is accessible.
    The expansion of the refuge will attract more visitors to 
provide an increased wildlife viewing opportunities as well as 
the increase biodiversity that will occur with a more cohesive 
habitat corridor. The expansion of the refuge will protect 
existing public lands.
    We simply do not have the time to delay acquisitions. The 
demand for outdoor recreation is projected to grow 15 to 30 
percent by the year 2010, yet the acreage available for these 
activities is expected to decrease 6 to 8 percent. This means 
increased pressures on existing parks. Additional public lands 
will help satisfy this increased demand by shifting activities 
to more than a handful of sites.
    The refuge expansion will also protect Lake Erie's long-
term health. You don't need a scientist to tell us that people 
prefer to live, work and play by waters that are clean. From an 
economic standpoint, if the water quality of Lake Erie were to 
decline again, fewer people would choose to visit Lake Erie.
    Thank you for permitting me to speak about the importance 
of our natural areas to the economics of the Lake Erie Western 
Basin economy. The natural attractiveness and desirability of 
the coastal region as a year-round travel destination depends 
upon maintaining the ecological integrity of Lake Erie. Our 
natural region is, in fact, our greatest economic asset.
    Thank you.
    Mr. Gilchrest. Thank you, Ms. Huntley. I understand that 
you responded in a very quick fashion from our original 
request. It is well appreciated.
    Ms. Huntley. Well, I appreciate the opportunity.
    [The prepared statement of Ms. Huntley follows:]

           Statement of Melinda Huntley, Executive Director, 
                      Lake Erie Coastal Ohio, Inc.

    Good morning Chairman Gilchrest, Ranking Minority Member Underwood, 
and members of the Subcommittee. My name is Melinda Huntley, and I am 
executive director of Lake Erie Coastal Ohio, Inc., a new nonprofit 
organization that has been created to change the way we look at Lake 
Erie. This organization is governed by a board representing tourism 
professionals, natural and historical resource managers, and community 
planners from across the Lake Erie shoreline, and our goal is to 
increase visitor spending along Lake Erie through marketing our rich 
natural and historical resources.
    I stand before you today, not as an expert on natural resources or 
conservation methods, but as an economic development specialist 
interested in the future sustainability of Lake Erie tourism and 
dependent industries. My comments will address three areas: the status 
of Lake Erie tourism and impending threats and opportunities, nature-
based tourism as a tool for reversing trends that threaten our 
livelihood, and the probable impact of the Lake Erie Western Basin 
International Wildlife Refuge to the basin's economic stability.

Tourism Economics in the Lake Erie Western Basin
    Tourism within the Lake Erie coastal counties supports more than 
264,00 jobs and provides tax revenues to support infrastructure 
improvements and a wide range of social services. Lake Erie direct 
sales to travelers totaled $7.3 billion in 1999. Including direct and 
indirect efforts, state and local taxes generated in the region in 1999 
were $599.7 million and $608 million respectively (Longwoods/Rovelstad, 
2000). Travel and tourism sales taxes generated the second largest 
revenue pool of state sales tax, second only to automobile sales.
    It's also an industry at risk. Tourism businesses in the State of 
Ohio have experienced a 21% decline in market share over the last six 
years (Longwoods International, 1999). Factors contributing to this 
loss include noncompetitive funding of the state's tourism budget, 
increased regional and global competition, and changing visitors 
trends. These shifting patterns of consumer needs and desires should be 
considered as opportunities, not as threats.
    Despite the changing preferences of travelers, the Lake Erie 
tourism industry has not diversified its product offering to meet these 
needs. This has created an unhealthy dependence only on the family 
travel market due to tradition, as well as the promotional efforts of a 
major amusement park in the region that outspends the State of Ohio in 
advertising dollars, dollars directed toward the family travel market. 
The family travel market is highly seasonal, resulting in a Lake Erie 
tourism economy with a disproportionate number of low-paying service 
sector jobs and higher unemployment rates. Travelers visiting Ohio 
April through September represent 72% of all Ohio overnight marketable 
trips, as compared to the U.S. norm of 62% (Longwoods International, 
1999).
    U.S. travelers report that the major reasons they do not travel 
include lack of time and lack of vacation time (TIA 2001). Lake Erie's 
tourism season used to stretch from Memorial Day to Labor Day, but this 
is no longer the case. Families are increasingly time-pressed, and 
organized summer recreational activities such as baseball games, camps, 
and band practices now last at least till mid-June only to resume in 
early August. Dual working parents have further complicated the 
situation by forcing families to vacation predominantly on the weekend. 
Weekend travel has risen a startling 72% since 1986 compared to weekday 
travel increases of 15% (TIA, 1997).
    If Lake Erie continues to focus only on those attractions that 
appeal to the family vacation market, we will continue to be faced with 
shrinking seasons and weekend travel domination. This translates to 
continued price-cutting, less visitor spending, and the continued 
decline of tax revenues generated by the tourism industry.
    Another important market for Northwest Ohio is sportfishing, 
representing approximately 22% of tourism spending. This market is also 
at risk. Consumer participation in sportfishing, and other consumptive 
wildlife activities, is decreasing nationwide, with a 28% drop in 
anglers between 1991 and 2001 (US Fish and Wildlife, 2002). From 1989 
to 1999, fishing license sales declined by 25.8 percent in the State of 
Ohio.

Nature-based Tourism as an Economic Tool
    Nature-based tourism is gaining popularity among travelers as well 
as communities seeking to benefit from its economic and conservation 
results. Visitor demands for activities are shifting to those heritage-
oriented, nonconsumptive, participatory and educational. Among the top 
activities desired by U.S. travelers are general outdoor activities 
(17%), visiting historical places and museums (14%), beaches (10%), 
visiting national/state parks (10%), and cultural events/festivals 
(10%) (TIA, 1999). In addition, 35% of U.S. travelers are seeking 
destinations they've never been before, and 34% are seeking 
destinations that are remote and untouched (Cook, 2002).
    Nature tourism is increasing at an annual rate of 10% to 30%, 
compared with an overall tourism growth of 4% (Reingold, 1993). The 
four most popular outdoor activities are walking, visiting a beach or 
waterside, family gatherings and sightseeing. Secondary to these, but 
still attracting at least 20 million participants each year, are 
hiking, camping, visiting nature centers and historic sites, wildlife 
viewing, studying nature near water, freshwater fishing, motorboating, 
swimming and picnicking. The sharpest rise in outdoor activity 
popularity has been in birdwatching. Since 1982-83, birdwatching has 
increased 301% from 21.2 million participants to 84.9 million (USDA, 
Univ. of Tennessee, 2000)
    Caution should be used when comparing these results to the U.S. 
Fish and Wildlife Service's 2001 National Survey of Fishing, Hunting 
and Wildlife-Association Recreation report. Although this survey shows 
wildlife viewing as the only wildlife-related recreation to have 
experienced an increase during the most recent survey period, it 
understates the level of activity compared to fishing and hunting. 
Fishing and hunting require licenses to be purchased, and therefore 
participants can be counted no matter what their level of involvement. 
It is more difficult to quantify the level of wildlife/nature viewing 
because there is no direct licensing database to count.
    Individual ecotourism efforts along Lake Erie near the proposed 
refuge site are already underway. Lake Erie Wing Watch is a marketing 
coalition of wildlife managers and tourism professionals in Erie, 
Ottawa, and Lorain counties. Located at the junction of two waterfowl 
flyways, these counties attract colorful neotropical bird migrations 
every spring and fall. These areas also attract the bird watchers, who 
spend more than $5.6 million in the local community. (Kerlinger, 1994)
    Who are these nature travelers, and why will additional efforts to 
attract them benefit Lake Erie's tourism economy? Profiles of the 
nature and heritage traveler depict them as being Baby Boomers with an 
average age of 52.1 years and a household size of 2.45 persons 
(Eubanks). They have both discretionary time and dollars. They also 
travel year-round, as nature's attractions vary with the seasons.

Lake Erie Western Basin International Wildlife Refuge: Expanding Public 
        Access
    Only 15% of the lake's 262-mile Ohio shoreline is accessible to the 
public (Ohio Lake Erie Commission, 2000). Lake Erie Coastal Ohio was 
formed to promote the natural and historic treasures of Lake Erie to 
the nature tourism traveler in order to diversity our product line, 
minimize the seasonality of our marketplace and increase the economic 
impact through direct visitor spending. In March 2002, we completed a 
shoreline Resource Inventory of sites that would be of interest to the 
nature traveler, an interesting challenge consider the expanse of 
development that has occurred along our shoreline in just 200 years.
    This patchwork assemblage of sites is stitched together with common 
natural and historical themes. Additional public lands would increase 
our ability to attract these visitors through increased wildlife 
viewing opportunities, as well as the increased biodiversity that would 
occur with a more cohesive habitat corridor.

Lake Erie Western Basin International Wildlife Refuge: Protecting 
        Existing Public Lands
    The demand for outdoor recreation is projected to grow, while the 
acreage available for these activities is projected to decrease. This 
means increased pressures on existing parks. Recreational activities 
away from home that are expected to grow by 2008 include those found at 
refuge areas and other public lands in the western basin region. They 
include day hiking (30% projected growth), bicycling (23% projected 
growth), sightseeing (18% projected growth), wildlife observation (15% 
projected growth), camping (13% projected growth) and canoeing/kayaking 
(13% projected growth) (Pollock). Yet, the amount of acreage in 
wilderness areas is expected to decrease 6% to 8% by 2010 (Pollock).
    If this trend is not reversed, existing wilderness areas will see 
increased usage at a rate that may devastate the resources. Additional 
public lands will satisfy this increased demand by shifting activities 
to more than a handful of sites.

Lake Erie Western Basin International Wildlife Refuge: Protecting Lake 
        Erie's Long-Term Health
    Scientists don't have to tell us that people prefer to live, work 
and play by waters that are clean. In just 200 years, we've removed 
more than 90% of the wetlands bordering our Great Lake. This would 
alter any body of water, but for Lake Erie, it's an even greater shock 
to the system. Lake Erie is the shallowest of all the Great Lakes, 
making it the most fragile and susceptible to change.
    Shoreline habitat, including wetlands, provides vital functions for 
maintaining the balance of Lake Erie. They dissipate wave energy thus 
protecting the nearshore ecosystems, and they improve the water quality 
through absorption of toxins and nutrients. They also provide sediment 
control. When these areas are removed, the waters are no longer 
filtered properly and the water quality suffers.
    From an economic standpoint, if the water quality of Lake Erie were 
to decline, fewer people would choose to visit, work and live by its 
shore. It's that simple.

Lake Erie Western Basin International Wildlife Refuge: Other 
        Considerations
    As further discussions are held regarding H.R. 4722, it's also 
important to ensure adequate funding to operate and maintain the future 
refuge. The Ottawa National Wildlife Refuge has done an excellent job 
documenting a long-term comprehensive plan for maintaining and 
enhancing the existing refuge sites. Among the recommendations are 
improvements to the interpretive functions and infrastructure to 
enhance the experience for the public. Now is the time to consider the 
operating budget requirements for infrastructure improvements, such as 
trails and visitor interpretation centers that will protect, as well as 
enhance, the refuge for future guests.
    The Lake Erie Western Basin International Wildlife Refuge planning 
committee should consider the future roles of existing refuges, and the 
interpretive structure and wildlife- viewing infrastructure at all 
sites, during the planning process.
Conclusion
    Thank you for permitting me to speak about the importance of our 
natural areas to the economic future of the Lake Erie Western Basin. 
The natural attractiveness and desirability of the coastal region as a 
year-round travel destination depends upon maintaining the ecological 
integrity of Lake Erie. Our natural region is in fact our greatest 
economic asset. Thank you.

                              BIBLIOGRAPHY

Cook, Suzanne, 2002, Travel Industry Association of America and AAA 
        Summer Travel Forecast Press Conference, Washington, DC. May 
        16, 2002.
Eubanks, Ted, and Davidson, Seth, 2000, The Business of Nature, 
        Fermata, Inc., Austin, TX.
Kerlinger, Paul, 1994, The Economic Impact of Birding Ecotourism on the 
        Magee Marsh Wildlife Area/Ottawa National Wildlife Refuge Area, 
        Ohio.
Longwoods, International and Rovelstad and Associates, 2000, The 
        Economic Impact, Performance and Profile of the Lake Region of 
        Ohio Travel and Tourism Industry.
Longwoods International, 1999, Ohio 1999 Travel Year, research study 
        for Ohio Department of Development, Division of Travel and 
        Tourism.
Ohio Lake Erie Commission, 2000, Lake Erie Protection & Restoration 
        Plan, Toledo, Ohio
Pollock, Sean R. (ed.) (1995). Statistical Forecasts of the United 
        States. New York: Gale Research Inc.
Reingold, L., 1993, ``Identifying the Elusive Ecotourist'', Tour and 
        Travel News Supplement (Going Green), October 25: 36-37.
Travel Industry of America (TIA), 1997, The 1997 Travel Market Report.
Travel Industry of America (TIA), 1999, The 1999 Travel Market Report.
Travel Industry of America (TIA), 2001, The 2001 Travel Market Report.
USDA Forest Service and the University of Tennessee, 2000, National 
        Survey on Recreation and the Environment.
US Fish and Wildlife Service, 2001 National Survey of Fishing, Hunting 
        and Wildlife-Associated Recreation. Preliminary Findings.
                                 ______
                                 
    Mr. Gilchrest. Oh wait. Ms. Chase. I am getting names mixed 
up--names with faces. All I know about Ohio is Route 80. I 
shouldn't admit that, but I have been back and forth across. 
But I am going to stop the next time I go through there.
    Miss Edith Chase. Welcome, ma'am.

  STATEMENT OF EDITH CHASE, PRESIDENT, OHIO COASTAL RESOURCE 
                    MANAGEMENT PROJECT, INC.

    Ms. Chase. Mr. Chairman and members, I would like to thank 
you for this opportunity to talk with you today.
    The Ohio Coastal Resource Management Project is a nonprofit 
citizens organization that works on Lake Erie coastal issues, 
and we are celebrating our 20th anniversary this year. Last 
March I was on a guided tour of northwest Ohio marshes and saw 
the eagles and the ducks and the migratory birds coming in for 
the annual spring migration. That was quite a day.
    We strongly support H.R. 4722 because coastal marshes have 
very important functions for Lake Erie and, as Mr. Mastroianni 
said, coastal marshes serve to reduce flooding and erosion, 
filter out pollutants and provide wildlife habitat and spawning 
and nursery grounds for fish and aquatic life. The marshes 
provide ecosystem services such as these of a value of over 
$4,000 per year at essentially no current cost.
    These coastal wetlands are on the flyway and play a crucial 
role in migratory water fowl management for nesting and resting 
areas. Ohio has already lost over 90 percent of its wetlands 
across the State, so each additional marsh area is very 
important to protect for the future.
    In addition, as Ms. Huntley said, travel and tourism are a 
$27 billion industry in Ohio, second largest industry in the 
State. Coastal wetlands attract visitors and residents for 
hunting, fishing, boating, birding and enjoyment of Lake Erie; 
and when you come to Ohio I will invite you to come and watch 
the sunset over Lake Erie because a lot of folks do, part of 
the quality of life.
    Mr. Gilchrest. I would be happy to do that, Ms. Chase.
    Ms. Chase. Good.
    This legislation will enable government to purchase or 
accept donations of private land along the shoreline for parks 
or habitat on a completely voluntary basis, and we commend the 
cooperation of the States of Michigan and Ohio and urge for 
prompt passage.
    Again, thank you for the opportunity; and I will be happy 
to answer any questions that you have.
    Mr. Gilchrest. Yes, ma'am. Thank you so much for coming.
    [The prepared statement of Ms. Chase follows:]

                 Statement of Edith Chase, President, 
                Ohio Coastal Resource Management Project

    The Ohio Coastal Resource Management Project, a nonprofit citizens 
organization, supports H.R. 4722 to provide for the establishment of 
the Lake Erie Western Basin International Wildlife Refuge in the states 
of Ohio and Michigan. We commend the cooperation of these two Great 
Lakes states to enhance the protection of Western Lake Erie marshes, 
those valuable and vulnerable wetlands that serve to reduce flooding 
and erosion, filter out pollutants, and to provide wildlife habitat and 
spawning and nursery areas for fish and aquatic life.
    Conflicting ideas of appropriate land use and high land values have 
already caused destruction of many wetland areas along the Lake Erie 
shoreline. Wetlands are among the most economically productive lands in 
the state, providing that they remain wetlands. Each acre of wetland 
yearly performs over $4,000 in services, such as reduction in nearshore 
sediment, nutrient and contaminant loading, and shore erosion, at 
essentially no current cost. The coastal wetlands are the prime 
waterfowl habitat in Ohio. These wetlands are on the flyway and play a 
crucial role in the migratory waterfowl management for nesting and 
resting areas.
    In addition, travel and tourism are a $27 billion industry in Ohio, 
the second largest industry in the state. Coastal wetlands attract 
visitors and residents for hunting, fishing, boating, beaches, 
picnicking, hiking, biking, birding, and enjoyment of Lake Erie. These 
wetlands also provide opportunities for research and education for all 
Ohioans.
    This wildlife refuge legislation would enable government to 
purchase or accept donations of private land along the shoreline that 
later would be turned over for public use as parkland or protected as 
habitat. Private participation is completely voluntary, according to 
this bill.
    OCRMP urges prompt passage of this bill to authorize the Western 
Basin International Wildlife Refuge. Your consideration is very much 
appreciated.
                                 ______
                                 
    Mr. Gilchrest. I guess I would--Fish and Wildlife raised a 
number of reservations, and so what I would like to do is maybe 
get some of those reservations at least partially resolved 
during the question period here so that we can move forward to 
see how we can, with the State, the private sector, the local 
communities and, actually, the Canadians, can move forward in a 
cooperative fashion.
    I don't think anybody sitting at the table feels that every 
square inch that is left that is wetland or habitat open space 
does not deserve to be protected in some fashion. I guess it is 
a matter of how we proceed to insure that everybody involved in 
this, whether it is the Feds, the State, whoever in Canada, 
local government, private interest parties move together to 
create this structure to make it happen.
    Is there--and I guess maybe, Mr. Speck, I will start with 
you. The boundaries and the cost estimates, is there some 
clarity in what the boundaries will be or are right now and is 
there some estimate as to what the complete package would cost?
    Mr. Speck I have not seen that data to date in that I think 
what we are really looking at is an area that would be subject 
to possible inclusion over time in a wildlife refuge. 
Obviously, there is development in that area that is within the 
map that is being developed that would not fall within the 
refuge. Indeed, there are communities, and the mapping of that 
maps an area where clearly not all of it would be included in 
the refuge in the future.
    Mr. Gilchrest. Now, Mr. Stieglitz talked about the 
comprehensive plan that--did I pronounce it wrong?
    Mr. Stieglitz. That is all right, Mr. Chairman. I am used 
to it.
    Mr. Gilchrest. How do you pronounce your last name?
    Mr. Stieglitz. Stieglitz.
    Mr. Gilchrest. OK. My glasses aren't working this morning. 
Mr. Stieglitz.
    Mr. Stieglitz talked about this requirement that all 
refuges had to come up with a comprehensive plan for that 
refuge--what it was going to be used for, the potential 
possible expansion of it. Now--and they have public hearings 
during that process. Has this Western Basin concept been part 
of that public hearing process with Fish and Wildlife?
    Mr. Speck I don't know that that has been to date, has it? 
I am unaware if it has been--yeah. I am correct when I said I 
am unaware that it has been, and we are told that it has not 
been to date.
    Mr. Gilchrest. So this process--how would you on the ground 
in Ohio move to begin trying to incorporate this into that 
management plan? I guess anybody up here can offer suggestions 
on that.
    Ms. Huntley. Mr. Chairman, I would like to mention that 
there was one public hearing held, at least one public hearing 
for this refuge expansion that was held--I think it was July 8 
was the date for that. So I wanted to correct that for the 
record.
    Mr. Gilchrest. I see.
    Mr. Stieglitz. Mr. Chairman, I would also like to respond. 
The area that is within the relative map for the Lake Erie 
Western Basin National Wildlife Refuge was considered during 
the 1994 preliminary project proposal when the 5,000 acre 
expansion was proposed, and those lands were also reviewed 
again and considered during the current CCP process not as the 
Lake Erie Western Basin International Wildlife Refuge but as 
potential expansion areas to the existing refuges.
    Mr. Gilchrest. So the areas that are--I know the boundaries 
aren't perfectly clear. But I am looking at this map. So the 
potential--I am assuming this map has come from--where did we 
get this map from? Oh, Fish and Wildlife gave us this map.
    Mr. Stieglitz. Yes, sir.
    Mr. Gilchrest. So is what we see here the total 5,000 
acres?
    Mr. Stieglitz. No, sir. That--pardon me for not knowing my 
colors better. That kind of peachy color that is identified was 
a focus area that was used as sort of a rough boundary in which 
we would look at lands that might contribute to the purposes of 
the refuges that were established. So that is much greater than 
5,000 acres.
    Mr. Gilchrest. So I guess I would ask either Mr. Speck or 
Mr. Mastroianni or Ms. Huntley or Ms. Chase, does this mirror 
at all what you are trying to do? Have you seen this map?
    Ms. Huntley. Yes, absolutely. It mirrors what we are 
looking to do and also mirrors the ecological habitats that 
must be protected along the Western Basin.
    My understanding--correct me if I am wrong--but in the CCP 
that was developed by the Ottawa Wildlife Refuge some years ago 
I happened to take part in part of that process and some of 
this land was identified then as possible subject areas for 
future acquisition. I think it boils down to--I believe Mr. 
Speck identified it the best, that we are not seeking the 
immediate acquisition of some of these projects at this point 
but that it provides the way to acquire these lands in the 
future, and that that future is rapidly occurring and this land 
is becoming lost.
    Mr. Gilchrest. I understand that you are not looking for 
the acquisition dollars immediately but over a period of time 
that this can be acquired in the future. Is it something that 
has to be done by Fish and Wildlife, that can't be acquired 
by--in part by the State of Ohio, by the City of Toledo? Are 
there any pieces that can be joined together through a 
cooperative purchasing agreement that runs right from the Feds 
to the State to the local community?
    Ms. Huntley. I think partnerships are key.
    I think also, in regard to some of the concerns that were 
brought up by the Fish and Wildlife Service, I think we have 
got to be quite creative in being able to provide public access 
as well as being able to provide the infrastructure at these 
sites to enable a visitor to see them. I think even with some 
of the operating and maintenance costs that are being dealt 
with by the U.S. Fish and Wildlife Service we need to be a 
little more creative in reaching out to private industry and to 
other entities to help with those, and I think those partners 
would be available in this region. It is very important to us, 
and I will let Director Speck mention a little bit about the 
State partnership.
    Mr. Speck Right. A couple of comments, Mr. Chairman.
    First, the peachy map area, we don't see--we are not here 
to say we want all of this to be purchased by the Federal 
Government and taken over as a refuge of this scope at all. We 
don't see it as what is really in the future in the best of all 
worlds. But, rather, that by designating this area as an area 
in which the Federal Government can partner with other parties 
that we would find what areas we could bring enough land and 
marshland and water together to make groupings that could be 
managed as refuges, and we would see that as a partnership 
between the Federal Government and the State government.
    You know, we are talking about the Ottawa Refuge being 
directly adjacent to our own Magee Marsh Refuge right now. I 
know that the representative, principal sponsor, Congressman 
Kaptur is talking about, I think in another Committee, money 
for a new visitor center at Ottawa. I am not certain we 
shouldn't be talking about a joint visitor center. I think 
there are ways in which we can work in putting those things 
together.
    In Iowa, on the Iowa River, I am told there is a Federal 
refuge adjacent to the State's refuge. There is actually a 
contract between Fish and Wildlife and the State for the State 
to manage that Federal portion, and I can see that going in two 
directions.
    I think we have to be creative here in finding ways to 
partner in putting this all together. It should be one in which 
the State plays a role and the State's land holdings play a 
role and we may purchase some parts of this together, just as 
we have done in the past in a number of other ways, whether it 
be land and water conservation funds or a variety of other 
sources of funds where we partner with various Federal agencies 
to acquire lands.
    Mr. Gilchrest. I think you are absolutely correct, and I 
think we are moving into an era where the Feds can't do 
everything, the States can't do everything, the City of Toledo 
can't do everything unless you can tap into match and get some 
of those revenue streams for the City of Toledo.
    But I have some more questions. What I would like to do--
and I think we can work through the mechanics of this. The 
important thing is the last few square inches of fragile 
ecosystems we can't afford to let go. So we will work through 
this process and create a structure that can tap into all of 
the available creativity and the resources.
    But at this point I yield to the gentleman from American 
Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I would like to ask unanimous consent that the statement by 
Mr. Alan Front dated July 18, 2002, be submitted and be made 
part of the record.
    Mr. Gilchrest. Without objection.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Front follows:]

            Statement of Alan Front, Senior Vice President, 
                       The Trust for Public Land

    Mr. Chairman and Representative Underwood, on behalf of the Trust 
for Public Land, and our local partners Erie MetroParks, Ohio B.A.S.S. 
Chapter Federation, and the Black Swamp Conservancy, I thank you for 
providing me with the opportunity to testify before the Subcommittee 
today and offer the strong support of the for H.R. 4722, to establish 
the new Lake Erie Western Basin International Wildlife Refuge that it 
will authorize. I urge you to guide this important legislation to the 
timely enactment it deserves.
    The Trust for Public Land (TPL) is a national nonprofit 
organization that works with private landowners, public agencies, 
community leaders, and other partners to conserve landscapes with 
compelling natural, recreational, cultural, and other resource values. 
Since its founding in 1972, TPL has assisted in over 2,000 willing-
seller public acquisitions involving well over a million acres of 
resource lands. From this on-the-ground perspective, I would like to 
share with the Committee my organization's view that:
    <bullet> The proposed Lake Erie Western Basin International 
Wildlife Refuge is a logical extension of newly created Detroit River 
International Wildlife Refuge, which was strongly supported by Congress 
last year;
    <bullet> The proposed Lake Erie Western Basin International 
Wildlife Refuge is also a logical extension of the existing Ottawa, 
Cedar Point, and West Sister Island National Wildlife Refuges in 
northwestern Ohio;
    <bullet> The time to act is now to preserve the unique and 
important natural resources of the Lake Erie western basin or risk 
losing this opportunity forever; and
    <bullet> The legislation before you today has been carefully 
crafted by Congresswoman Kaptur and Congressman Dingell to provide a 
focused approach to addressing community and ecological needs, and 
promoting public-private partnerships in Ohio and Michigan to 
safeguards the region's natural resources.
    The unique landscapes across America provide the regions of our 
country with their distinctive character and identity. Lake Erie is the 
defining geographic feature of northwestern Ohio and southeastern 
Michigan. Lake Erie is to this part of the country what the Chesapeake 
Bay is to the coasts of Maryland and Virginia, what the Grand Canyon is 
to northern Arizona, what the Puget Sound is to the shores of 
Washington State, and what the Grand Tetons are to western Wyoming.
    Lake Erie is one part of the Great Lakes, the largest freshwater 
system in the world. Indeed, the Great Lakes account for more than 90 
percent of the surface freshwater in the United States. Lake Erie 
itself is the eleventh largest lake in the world by surface area. This 
abundance of freshwater has been integral to the economic might of 
northwestern Ohio and southeastern Michigan and safeguarding this 
natural resource is essential to the future economic vitality of the 
region.
    Lake Erie is also an extraordinarily productive natural resource. 
Lake Erie's fisheries are by far the most productive of the Great Lakes 
and the walleye fishing in Lake Erie is widely regarded as the finest 
in the world. A popular destination for anglers, the lake's western 
basin is world-renowned and last year boasted an astounding walleye 
harvest of 1.2 million fish. Lake Erie is also known for amazing yellow 
perch, smallmouth bass, and steelhead trout angling opportunities. Ohio 
anglers caught nearly 5.5 million yellow perch and 28,000 steelhead 
trout last season, and the lake's smallmouth fishery continues to be 
among the best in the country.
    The western basin of Lake Erie is at the intersection of the 
Mississippi and Atlantic flyways, representing one of the most diverse 
and important bird flyways in the country. An extraordinary array of 
migratory birds can be observed here, including the bufflehead, common 
golden eye, common merganser, and ruddy duck. With over 300 species in 
the western basin of Lake Erie, the region is one of the top ten 
birding spots in the entire country. During the spring and fall 
migrations, birdwatchers from across the country and around the world 
flock to the shores of western Lake Erie to observe this spectacular 
site.
    The wetlands along the western Lake Erie shoreline also provide 
extraordinary habitat for nesting waterfowl, including the largest 
concentration of American Black Duck in the nation. Areas to be 
included within the proposed refuge also support the largest heron and 
egret breeding colonies in the Great Lakes. These wetlands also support 
one of the largest populations of nesting bald eagles found anywhere in 
the Great Lakes region.
    However, over the course of the past 150 years, the wetlands of the 
region have all but disappeared. A dramatic illustration of this is the 
loss of the Great Black Swamp, which once extended across northwest 
Ohio into Indiana. Today, less than 5 percent of the Black Swamp 
remains in existence. What remains, however, provides critical habitat 
for the eagles, herons, egrets and other waterfowl identified above.
    To the east of Toledo, several spectacular islands are found along 
the shores of the western basin of Lake Erie. Among the inhabitants of 
these islands is the Lake Erie water snake, a non-poisonous snake that 
is unique to the islands. The Lake Erie water snake lives along the 
islands' distinctive limestone shorelines, but has seen its population 
dramatically decline in recent decades as development has destroyed its 
habitat. For example, in recent years, the population of the Lake Erie 
water snake has declined by 75 percent on North Bass Island and by 81 
percent on Middle Bass Island.
    In 1999, the U.S. Fish and Wildlife Service listed the Lake Erie 
water snake as being threatened with extinction. The decline in the 
population of the Lake Erie water snake is a ``canary in the coal 
mine'' alerting us to potentially irreversible changes in the ecology 
of the region and highlighting the need to act now.
    H.R. 4722 as introduced by Congresswoman Kaptur and Congressman 
Dingell is a carefully balanced approach, a helping hand rather than an 
iron fist, to address the restoration and land-protection needs of the 
western basin of Lake Erie. Like other legislation approved by this 
Committee, the bill authorizes acquisition of refuge lands for public 
management and stewardship. But the Lake Erie Western Basin 
International Wildlife Refuge Act also includes a variety of provisions 
specific to the needs of this unique place. With regard to land 
acquisition, the bill explicitly focuses on charitable land donations 
and willing-seller purchases, ensuring that all landowner participation 
will be by choice. It maintains an emphasis on historic public use by 
sportsmen and outdoor enthusiasts. It offers mechanisms for voluntary 
habitat management agreements between the U.S. Fish and Wildlife 
Service and its private neighbors. This legislation also provides for 
coordination with Canadian authorities on cooperative approaches to 
habitat improvement between their side of the western basin of Lake 
Erie.
    We look forward to working with you toward enactment of H.R. 4722, 
and to the remarkable cooperative model for conservation it will allow 
for the western basin of Lake Erie.
                                 ______
                                 
    Mr. Faleomavaega. Mr. Stieglitz, I can pretty much 
appreciate the concerns that the Administration has and the 
national wildlife service and to the extent that you are always 
faced with the problem of limited resources and having just 
tremendous responsibility and then trying to allocate those 
resources in the way that you feel comfortable in administering 
the process. Is basically the opposition from the 
Administration coming in fear that there is going to be 
additional funding necessary to implement the provisions of 
this bill?
    Mr. Stieglitz. That is part of the Administration's 
concern, yes, sir. The cost of acquisition itself, according to 
one of our regional refuge realty officers is pennies per acre 
when considered in perpetuity. But the operational and 
maintenance cost and potentially restoration as clearly 
identified in the proposed bill are the greater concern, sir.
    Mr. Faleomavaega. And how much is that, again, for the 
record in terms of the Administration's understanding how much 
the cost is going to be?
    Mr. Stieglitz. Sir, I am sorry. We are unable to evaluate 
that because the proposed bill does not define a clear area or 
contain a specific amount of acreage. It would be very 
difficult for us to estimate. I would not feel comfortable at 
this time making a guess, sir.
    Mr. Faleomavaega. This agreed portion in the peach proposal 
here in terms of what the bill proposes to acquire, how many 
acres are we talking about in this proposed bill, or hectares? 
I would rather call them in acres.
    Mr. Stieglitz. I don't do metric either, sir. We do not 
have an exact acreage figure represented by this. We know that 
it is 175 miles of coastline, but the actual acreage figure I 
do not have. It is not in the proposed bill.
    Mr. Faleomavaega. You mentioned earlier about the 
Comprehensive Conservation Program that the Fish and Wildlife 
administers. How many years has this program been in place in 
this area of the country as far as conducting studies and 
review?
    Mr. Stieglitz. Sir, this was a directive within the 
National Wildlife Refuge System Improvement Act of 1997. So 
this is a process outside of Alaska that we have only been 
doing for about 5 years, and we basically started from scratch 
with very little policy, no planning positions. So we have been 
planning in earnest perhaps for two and a half years since that 
law was passed.
    Mr. Faleomavaega. What I am concerned about, Mr. Stieglitz, 
is that we are going to continue reviewing, studying this thing 
to death and ending up with no results in terms of giving a 
little more realistic and factual information not only for the 
Committee but for the Congress to make a final determination of 
whether or not the proposed legislation has validity and 
acceptance also by the Congress to move forward in passage of 
this proposed bill.
    Mr. Stieglitz. I am sorry, sir. I didn't catch the question 
in there. I understand your concern that we--
    Mr. Faleomavaega. The question, Mr. Stieglitz, is that--how 
many more years are we going to continue making reviews and 
studies under the Comprehensive Conservation Program?
    I believe your colleagues there, members of the panel, all 
seems to be very positive not only in terms of economic 
benefits--it is an ecosystem. We are not talking about a 
destruction of wildlife, the validity that bird watching is the 
No. 1 enjoyment that the public has. I mean, it is such a win-
win situation as far as not only preserving the wetland but as 
a refuge. It is a very positive activity for the people in 
these communities, and I just can't understand why the 
Administration would be not supporting such an effort.
    Mr. Stieglitz. Yes, sir. I am sorry. I caught the question 
that time. The CCP for the Ottawa National Wildlife Refuge 
complex is completed. It was posted to the Internet within the 
last month. Based upon that evaluation, which includes 
stakeholder input, the recommendation that was accepted was 
that there would not be any additional expansion of refuges in 
Ohio in addition to that 5,000 acres that was identified in 
1994.
    Mr. Faleomavaega. Are you suggesting that Mr. Speck and 
other State leaders and organizations all agree with the 
results of the Comprehensive Conversation Program review of 
this additional 5,000 acres?
    Mr. Stieglitz. No, sir. I am just repeating the results of 
that particular study. You are asking how long it would take. 
So that one is complete.
    The Detroit River International Wildlife Refuge CCP is just 
beginning, and I believe we have about 18 months to complete 
that, sir.
    Mr. Faleomavaega. Mr. Speck, are you familiar with the 
comprehensive conservation plan as outlined by Mr. Stieglitz 
and on the part of the administration--as part of the review 
process?
    Mr. Speck. I have not had an opportunity to review that 
plan.
    Mr. Faleomavaega. Has the Fish and Wildlife Service ever 
contacted your office and other organizations of Ohio and 
Michigan State officials about this Comprehensive Conservation 
Program?
    Mr. Speck. I would imagine that they have, sir. I suspect 
that when this plan was being put together I was not in office.
    Mr. Faleomavaega. Well, how about your predecessors?
    Mr. Speck I am told by our chief of wildlife, who has been 
in office a good bit longer than I have, that they did contact 
us and that we did have discussions.
    Mr. Faleomavaega. And that the input given by the State 
officials of both States has been comprehensive as well in 
supportive of the idea of expanding this area.
    Mr. Budzik. Mr. Chairman, yes, we did. We did support the 
expansion as long as it didn't go deep into the farmland. That 
is a very intensively farmed area. We did support the expansion 
of the Ottawa National Wildlife Refuge but only if it didn't go 
within a certain mile point in land.
    Mr. Faleomavaega. The reason for my raising the question, 
Mr. Speck, is that I want to make sure that whatever the 
Comprehensive Conservation Program puts out in suggesting that 
after public review and commenting that part of the program 
review makes a very factual statement about the input from the 
community leaders, States and every other way.
    I mean, you know, I like the idea, well, we ask for public 
input and then they come out and say something entirely 
different from what you are proposing or something that you 
would be supportive of; and I just want to make sure that the 
Comprehensive Conservation Program does reflect accurately the 
concerns and what the community leaders of the States are 
putting in as far as being participants in this Comprehensive 
Conservation Program.
    Mr. Speck. As Chief Budzik indicated, we are comfortable 
with that expansion. But you will recall in my own testimony 
today in indicating reasons why we were supportive of this 
proposal, one was that we were supportive on the assumption 
that it would stay close to the water and not be used as a 
device for moving substantially inland.
    Mr. Faleomavaega. Mr. Stieglitz, would you be in favor and 
for which I--you took the words out of my mouth, Mr. Chairman, 
and some comments made earlier by members of our panel that 
this can be done on a partnership scale in the situation where 
administration and the community leaders participated actively 
so that the entire burden of--if you talk about the financial 
burden, that this could be done as in partnership with the both 
State governments and whatever organizations that are willing 
to be participants in.
    Mr. Stieglitz. Yes, sir; and I believe earlier in my 
testimony I provided a number of partnership opportunities 
whereby the States and other local communities and 
organizations could receive funding from the Fish and Wildlife 
Service to protect these areas and restore them without 
necessarily becoming part of the refuge system. So those 
opportunities are certainly in place already, sir.
    Mr. Faleomavaega. To suggest that both the Chairman and 
myself fully support in that pursuing the concept of 
partnerships and in the process of reviewing the provisions of 
the bill, how much time do you think the Administration is 
going to need for the input from our community leaders and from 
the Members of Congress like Marcy Kaptur and John Dingell so 
that we can package this thing?
    Obviously, we are getting closer and closer to adjournment. 
But what do you suggest, a time scale that we can start working 
on this thing so that we come out with a proposed bill that is 
favorable both to the Administration as well as to our 
distinguished members that are proposing this legislation?
    Mr. Stieglitz. Sir, if I understood the question correctly, 
the Administration does not support the legislation, that we 
believe that the partnership tools are in place at this time. 
If the Committee is asking for a more specific evaluation of 
actual costs and so forth, it would take us probably 2 or 3 
weeks after we receive very specific boundary information and 
so forth to put together a preliminary estimate.
    Did I answer your question correctly, sir?
    Mr. Faleomavaega. Oh, that really answers my question very 
well.
    So, in other words, we can really move in getting to the 
specifics and see where we can go and continue the dialog with 
your office and our friends from the two States on how we can 
move this on as far as partnership principle is concerned.
    Mr. Stieglitz. Yes, sir.
    Mr. Faleomavaega. All right. Boy, that is very 
complimentary to the Administration, Mr. Chairman; and I look 
forward in working with you and our friends from the 
Administration to see if we can really move this legislation 
forward.
    Mr. Chairman, I want to thank the members of the panel and 
Mr. Stieglitz and administration for their input and, 
hopefully, that we can work as quickly as we can to move this 
legislation forwards. Thank you, Mr. Chairman, and thank the 
members of the panel.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    This is an interesting proposal in that it is--in one way, 
it is similar to what I am trying to do in my district along 
with two other States, Delaware, Maryland and Virginia. It is 
called the Delmarva Peninsula between the Atlantic ocean and 
the Chesapeake Bay, and we just passed and got signed into law 
legislation for a pilot project for a conservation corridor 
from Virginia to Pennsylvania hooking or linking wildlife--
existing wildlife refuges, both Federal and State, and existing 
farmland that--where easements have been purchased. Those would 
be the hubs for wildlife habitat, and the corridors would link 
them.
    Now, there are no boundaries in that legislation, and there 
basically is no cost estimate in that legislation. It uses 
existing authorization through the Department of Agriculture, 
and we are, on our own, on the parameters partnering with every 
conceivable potential ally out there, whether it is other 
Federal agencies, State agencies, State departments of 
agriculture, the private sector and so on.
    So what I would like to do with Ms. Kaptur and Mr. Dingell 
and yourselves also, as we move through this process, is maybe 
some of the language that we used in that legislation--and we 
have a 5-year pilot project. It is really going to be a 20- or 
30-year project that exists in the early stages of development. 
But we would like to work with you on this in developing 
something similar so that you can move forward.
    I understand Fish and Wildlife's reservations about the 
ambiguities in the language about the cost and the boundaries 
and the lack of specifics, and I understand your concept that 
we have this area out there and we would like to study it and 
see what are the best areas that can be purchased and at what 
price. So I think we could probably marry the two of those 
together and move forward.
    I did have one other quick question and maybe it is to Mrs. 
Huntley about wanting to increase access. I guess my question 
is, how do you provide increased access without increased 
degradation of the very habitat you are trying to protect?
    Ms. Huntley. That is a question that has been studied for 
quite a while, and it is something we are taking into 
consideration as we develop our strategy.
    We also know it has got to be a hand-in-hand process as we 
go about identifying some of the resources along Lake Erie. We 
are also providing some of the tools for site managers to help 
minimize some of this impact. There are obvious areas that are 
hands-off, that you don't want additional people to visit. But 
there are also areas with boardwalks in place and the funding 
to be able to generate some of those boardwalks and 
interpretation where public access is important, because that 
is the only way you are going to reach the conservation message 
to other people. So that is something we are taking into 
consideration as we go through our presentation and our 
strategic plan.
    One of the things we want to put into effect is a 
conservation fund that will help wildlife areas, whether they 
be Federal, State, county or private landowners that they can 
use to generate improved infrastructure for dealing with 
additional people as well as improve the interpretation of the 
natural resources.
    Mr. Gilchrest. Is anybody thinking about going so far as to 
limiting the--you talked about certain areas where there would 
be boardwalks, so I guess people wouldn't walk on the bogs or 
the marshes. Is there any discussion as to certain areas where 
power boats would be appropriate, power boats would not be 
appropriate, jet skis versus canoes and kayaks, four-wheel-
drive vehicles versus horses? Are those kinds of things being 
discussed?
    Ms. Huntley. I think those are things that are going to be 
discussed very quickly. Obviously, the incompatible uses 
between some of the off-road vehicles are already becoming a 
problem in some of the more urban areas.
    Mr. Gilchrest. Mr. Speck.
    Mr. Speck. Mr. Chair, I might comment that we already do 
that with some of our wildlife refuges at the State level in 
terms of controlling the kinds of boating access to those. And 
in some of our nature preserves along the lake and indeed out 
on the islands, some are open to the public. Some are open to 
the public if they stay on the boardwalks only and some are 
open only by special permit where it is so rare and endangered 
that we feel it has to be a very controlled access.
    Let me take the liberty of saying that we see this as an 
opportunity not only to move for additional Federal support but 
to bring State resources that our anglers and hunters and 
others provide and also leverage other private sector 
resources, the Ducks Unlimited, for example, and others that we 
have partnered with and I think the Federal Government has 
partnered with. We seldom expand a refuge without a good many 
partners at the State level, and we think this might facilitate 
that as well.
    There are also a number of private refuges up through this 
area; and as membership in those refuges evolve, it might 
provide opportunities for those members to say at some point in 
the future we will retain access for our members, but at some 
point in the future we might put this within a Federal refuge. 
I think there are a lot of opportunities to be creative.
    I think, on the other hand, you need to be careful with 
maps like this that they do not appear to suggest that the 
Federal Government is going to come in with partners or no 
partners and take over that whole area or that could make it 
difficult to expand at all if these--maps like this can be 
misinterpreted if they are not carefully described.
    Mr. Gilchrest. Absolutely. Open communication is vital with 
the community.
    Mr. Speck. If it implied that the Feds were going to come 
in with money to take over all the peachy area, you can be 
certain that I would be giving different testimony.
    Mr. Mastroianni. A few comments on what was said.
    In Canada, the government of Ontario Conservation Land Tax 
Incentive Program offers 100 percent tax exemption to eligible 
property owners who agree to protect the natural heritage of 
their land. So I think that if we are concerned with budgetary 
items that is--
    Mr. Gilchrest. Can you do that in Ohio?
    Mr. Mastroianni. Anything is possible through legislation. 
We would certainly -.
    Mr. Gilchrest. As an incentive for people to--
    Mr. Mastroianni. Yes. So I think that we might want to work 
with the State and with the Federal Government to concentrate 
some areas as we are looking at now, that if it is owned 
privately and they do not want to donate it to the State or 
local government or to the Federal Government, that perhaps we 
could work out some tax incentive for the protection.
    The other thing, on maintenance costs, there are 
maintenance costs with wildlife refuges but not as much as it 
would be in an active park. And I think that even though costs 
are always a consideration, I know as a former parks 
commissioner in two cities one of the things I did was moved 
from active recreation into wildlife preservation because it 
costs--the costs went down dramatically, and then we worked 
with volunteers to help maintain those areas.
    So I think that the overcautiousness by the Park Service 
may be unwarranted on what this was really going to cost us, 
and so I would be hesitant to believe that the cost would be so 
prohibitive that we should not pursue a move toward protecting 
these wildlife areas because I think that we could deal with 
the costs very effectively. Thank you.
    Mr. Gilchrest. I couldn't agree with you more on that 
score.
    Ms. Chase, do you have anything else to tell us this 
morning, comments on what we have been discussing?
    Ms. Chase. Just to support the comments of Dr. Speck and 
the others.
    Mr. Gilchrest. Who we certainly--
    Ms. Chase. I think partnerships are a key to whatever we 
do.
    Mr. Gilchrest. Yes, ma'am.
    Mr. Stieglitz.
    Mr. Stieglitz. Thank you, Mr. Chairman.
    I had a sinking feeling right as Mr. Faleomavaega left the 
room that there is some confusion, so I want to be sure--
    Mr. Gilchrest. You know, I picked up on that. I will talk 
to him about it later.
    Mr. Stieglitz. --that we are perfectly clear. The 
administration does not support this legislation. The 
administration feels that there are existing tools in place to 
allow protection of this area to go through in partnership 
without establishing a new or expanded National Wildlife 
Refuge. Was that the understanding that you had, Mr. Chairman?
    Mr. Gilchrest. I think I had that understanding. I think 
when you said it would take about 3 weeks to figure out the 
cost once you got the boundaries, Mr. Faleomavaega got very 
interested in that.
    Mr. Stieglitz. OK. Well, I am glad I clarified it.
    Mr. Gilchrest. So you want me to tell Mr. Faleomavaega that 
in about 3 weeks you will have that all ready for him?
    Mr. Stieglitz. Yes, sir, if you are not too busy. Thank 
you, Mr. Chairman, for allowing me to clarify the 
Administration's position.
    Mr. Gilchrest. Yes, sir. I understand.
    Ladies and gentlemen, thank you very, very much for your 
interest in this. We will figure this out one way or another; 
and, as Mr. Speck said earlier, our time is escaping.
    The hearing is now adjourned.
    [Whereupon, at 11:41 a.m., the Subcommittee was adjourned.]


</pre></body></html>
